   November 13, 2006




Acquisition
FY 2005 DoD Purchases Made
Through the National Aeronautics
and Space Administration
(D-2007-023)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ADA                   Antideficiency Act
DFARS                 Defense Federal Acquisition Regulation Supplement
DISA                  Defense Information Systems Agency
DITCO                 Defense Information Technology Contracting Office
FAR                   Federal Acquisition Regulation
FMR                   Financial Management Regulation
IG                    Inspector General
GAO                   Government Accountability Office
NASA                  National Aeronautics and Space Administration
OIG                   Office of Inspector General
O&M                   Operation and Maintenance
RDT&E                 Research, Development, Test, and Evaluation
SEWP                  Scientific and Engineering Workstation Procurement
SSC                   Space and Naval Warfare Systems Center
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
USSOCOM               United States Special Operations Command
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                       November 13,2006
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACOUISITION.
                 TECHNOLOGY. AND LOGISTICS
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE INFORMATION SYSTEMS
                 AGENCY
               NAVAL INSPECTOR GENERAL
SUBJECT: Report on FY 2005 DoD Purchases Made Through the National Aeronautics
         and Space Administration (Report No. D-2007-023)

      We are providing this repolt for review and comment. We considered
management comments on a draft of this report when preparing the final report.
      DoD Directive 7650.3 requires that all recommendations be resolved promptly.
We request that the Depaltments of the Navy and Air Force reconsider their comments on
Recommendation I .a. and the Defense Information Systems Agency reconsider its
comments on Recommendation 1.b. by December 13,2006.
        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AUDACM@dodin.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Richard B. Jolliffe at (703) 604-9201 (DSN 664-9201) or Mr. Terly L. McKinney
at (703) 604-9288 (DSN 664-9288). The team members are listed inside the back cover.
See Appendix G for the report distribution.
                                                                          A




                          &@e *        Devutv Insvector General
                                          .   -for Auditing
cc: Inspector General, National Aeronautics and Space Administration
               Department of Defense Office of Inspector General
Report No. D-2007-023                                                November 13, 2006

(Project No. D2005-D000CF-0273.000)

               FY 2005 DoD Purchases Made Through the
              National Aeronautics and Space Administration

                                Executive Summary

Who Should Read This Report and Why? DoD contracting officers, contracting
specialists, program managers, and financial managers should read this report because it
discusses commonly misunderstood guidance on planning, awarding, and funding of
purchases made against contracts managed by non-DoD organizations. This report
discusses issues identified when DoD organizations made purchases against the National
Aeronautics and Space Administration (NASA) Scientific and Engineering Workstation
Procurement contracts. Furthermore, this report discusses 14 potential Antideficiency
Act violations related to the purchases reviewed.

Background. This report is one of several reports on DoD purchases made through non-
DoD agencies. This audit was performed as required by section 811, “Inspector General
Reviews and Determinations” of Public Law 109-163, “National Defense Authorization
Act for Fiscal Year 2006,” January 6, 2006.

NASA awarded 26 Government-wide acquisition contracts to 19 vendors that supplied
various information technology products. These contracts are commonly referred to as
the NASA Scientific and Engineering Workstation Procurement contracts. These
contracts consisted of 9 groupings, known as “classes,” and a group of 8(a) set-asides.
There were 4 single-award classes, each containing 1 single-award contract; 5 multiple-
award classes, consisting of 16 vendors on 19 contracts; and 3 8(a) set-aside contracts.
The 26 Scientific and Engineering Workstation Procurement contracts provided
commercial off-the-shelf products, and each class offered different types of information
technology products. The orders awarded by DoD were direct acquisitions, which are
orders issued by DoD contracting officers under a contract awarded by a non-DoD
agency. As a result, funds used to purchase information technology products from those
contracts were not transferred from DoD to NASA, and all award decisions for orders
were made by DoD contracting officers. For use of the contract, DoD paid NASA a
percentage fee relative to the size of the purchase being made.

As of October 11, 2005, DoD awarded 6,569 orders valued at $343.2 million against the
NASA Scientific and Engineering Workstation Procurement contracts in FY 2005. Of
the 6,569 orders, 2,841 accounted for 88 percent of the money spent. Of the 238
contracting offices that awarded the 2,841 orders, we visited 6 DoD sites that awarded
1,336 orders valued at approximately $155.8 million. At the 6 sites, we reviewed
111 orders valued at approximately $85.9 million.

Results. DoD contracting and program personnel did not comply with acquisition rules
and regulations when using non-DoD contracts. DoD financial and accounting officials
did not comply with appropriation laws and regulations. Of the 111 orders reviewed,
valued at approximately $85.9 million, 98 were either improperly executed, improperly
funded, or both. Specifically,

       •   71 orders, valued at $73.4 million, had little or no justification in the files for
           using a non-DoD contract vehicle;

       •   69 orders, valued at $49.5 million, were awarded without providing fair
           opportunity to all contractors qualified under the multiple-award contracts;

       •   26 orders, valued at $25 million, had inadequate award documentation; and

       •   14 orders, valued at $19.6 million, were funded in a manner that resulted in
           potential Antideficiency Act violations.

As a result, funds were not used as intended by Congress, competition was limited, and
DoD has no assurance it received the best value.

We recommended that the Acquisition Executives for the Navy, Air Force, and Defense
Information Systems Agency require contracting officers conducting direct acquisitions
for amounts greater than the simplified acquisition threshold to determine whether the
use of non-DoD contracts is in the best interest of the Government and verify that the
required goods, supplies, or services cannot be obtained as conveniently or economically
by using a DoD contract. The contracting officer or another official designated by the
agency head should document those conclusions in writing. The Acquisition Executives
for the Navy, Air Force, and Defense Information Systems Agency should also develop a
training course that instructs contracting and other program office personnel on proper
acquisition planning and contract administration for assisted acquisitions. The course
should also emphasize the bona fide needs rule and appropriations law.

We recommended that the Under Secretary of Defense for Acquisition, Technology, and
Logistics should disseminate a memorandum to all DoD contracting offices to
reemphasize that contracting officials must adhere to the competition and documentation
requirements for multiple-award contracts; direct that contracting officers at DoD
organizations using the NASA Scientific and Engineering Workstation Procurement
contracts must take the free training provided by NASA; and require contracting officers
to use the NASA Scientific and Engineering Workstation Procurement on-line tool when
requesting quotes because the tool aids contracting officers in providing fair opportunity.
See the Finding section of the report for the detailed recommendations.

We also identified 14 potential Antideficiency Act violations, which are listed in
Appendix F. Recommendations for the Under Secretary of Defense (Comptroller)/Chief
Financial Officer to initiate preliminary reviews regarding those potential violations are
in the Inspector General audit report, “Potential Antideficiency Act Violations on DoD
Purchases Made Through Non-DoD Agencies.”

Management Comments and Audit Response. The Under Secretary of Defense for
Acquisition, Technology, and Logistics; Department of the Navy; Department of the Air
Force; and Defense Information Systems Agency provided comments to our draft report.
Also, the Department of the Navy and the United States Special Operations Command
provided comments regarding potential Antideficiency Act violations.

The Director of Defense Procurement and Acquisition Policy (Director of Defense
Procurement), commenting on behalf of the Office of the Under Secretary of Defense for

                                              ii
Acquisition, Technology, and Logistics, generally concurred with the recommendations.
Although some of the Director of Procurement’s comments only partially concurred, the
actions proposed met the intent of the recommendations. The Director of Defense
Procurement will issue a policy memorandum addressing most of the issues addressed in
the recommendations. In addition, the Director of Defense Procurement will work with
NASA to add language to the Web site for the Scientific and Engineering Workstation
Procurement contracts addressing the remaining recommendations.

The Chief of Staff/Policy to the Deputy Assistant Secretary of the Navy for Acquisition
Management (Chief) partially concurred with our recommendations. The Chief’s
comments did not fully meet the intent of the recommendations. The Chief disagreed
with our statement that researching potential contracts should be DoD-wide. The Chief
agreed to conduct research, but to limit that research to command-available contracts and
other known contracts. We believe the research should be DoD-wide and not just
contracts that are readily available. Accordingly, we request the Chief provide comments
to the final report.

The Assistant Secretary of the Air Force (Acquisition) (Assistant Secretary) concurred
with our recommendations. However, the comments did not fully meet the intent of the
recommendations. Although the Assistant Secretary’s comments emphasized more
controls on the program officials generating the requirement, we believe the contracting
officers have a responsibility to determine the best contract and contractor to meet a
requirement. Furthermore, we believe the contracting officer should sign the justification
for using a non-DoD contract. We also believe that procedures for contracting officers
should be discussed in the Air Force guidebook. Accordingly, we request the Assistant
Secretary provide comments to the final report.

The Director of Procurement, Chief of the Defense Information Technology Contracting
Organization (Director of DITCO Procurement), commenting on behalf of the Defense
Information Systems Agency, concurred with our recommendations. However, the
comments did not fully meet the intent of the recommendations. The Director of DITCO
Procurement stated that additional Economy Act training would be provided. However,
the Director of DITCO Procurement did not address training on the use of non-DoD
contracts not governed by the Economy Act and training procedures to properly execute
the Agency’s policy for using non-DoD contracts. Accordingly, we request the Director
of DITCO Procurement provide comments on the final report.
The Chief of Staff/Policy to the Deputy Assistant Secretary of the Navy for Acquisition
Management and the Comptroller for the United States Special Operations Command
questioned the potential Antideficiency Act violation in Appendix F. We continue to
believe that each of the orders may violate either the purpose statute or the bona fide
needs rule.

We request that the Department of the Navy, the Department of the Air Force, and the
Defense Information Systems Agency provide comments on the final report by
December 13, 2006.




                                            iii
Table of Contents

Executive Summary                                                             i

Background                                                                   1

Objectives                                                                   3

Review of Internal Controls                                                  3


Finding
     DoD Use of the NASA Scientific and Engineering Workstation
       Procurement Contracts                                                  5

Appendixes
     A. Scope and Methodology                                                29
     B. Prior Coverage                                                       31
     C. NASA Scientific and Engineering Workstation Procurement
          Contractors                                                        33
     D. Multiple-Award Contract Problems Identified                          34
     E. Single-Award Contract Problems Identified                            38
     F. Potential Antideficiency Act Violations                              39
     G. Report Distribution                                                  44

Management Comments
     Office of the Under Secretary of Defense for Acquisition, Technology,
           and Logistics                                                     46
     Department of the Navy                                                  49
     Department of the Air Force                                             52
     United States Special Operations Command                                54
     Defense Information Systems Agency                                      56
Background
    This audit was performed as required by section 811, Public Law 109-163,
    “National Defense Authorization Act for Fiscal Year 2006,” January 6, 2006.
    Section 811 states:

    “(a) INSPECTOR GENERAL REVIEWS AND DETERMINATIONS.—
         (1) IN GENERAL.—For each covered non-defense agency, the Inspector
    General of the Department of Defense and the Inspector General of such non-
    defense agency shall, not later than March 15, 2006, jointly—
           (A) review—
                  (i) the procurement policies, procedures, and internal controls of
           such non-defense agency that are applicable to the procurement of
           property and services on behalf of the Department by such non-defense
           agency; and
                  (ii) the administration of those policies, procedures, and internal
           controls; and
           (B) determine in writing whether—
                  (i) such non-defense agency is compliant with defense procurement
           requirements;
                  (ii) such non-defense agency is not compliant with defense
           procurement requirements, but has a program or initiative to significantly
           improve compliance with defense procurement requirements; or
                  (iii) neither of the conclusions stated in clauses (i) and (ii) is correct
           in the case of such non-defense agency.”

    The law requires audits of the Department of the Treasury, Department of the
    Interior, and National Aeronautics and Space Administration (NASA). In
    addition, the Ronald W. Reagan National Defense Authorization Act for Fiscal
    Year 2005, section 802, required the DoD Office of Inspector General (OIG) to
    jointly conduct an audit with the General Services Administration OIG of the
    General Services Administration. This report covers NASA and separate reports
    will address contracting at the Department of the Treasury, the Department of the
    Interior, and the General Services Administration.

    DoD primarily made purchases through NASA on its Scientific and Engineering
    Workstation Procurement (SEWP) contracts. The NASA SEWP contracts are
    Government-wide acquisition contracts governed by the Clinger-Cohen Act. The
    Clinger-Cohen Act assigns the overall responsibility for the acquisition and
    management of information technology to the Director, Office of Management
    and Budget. The Office of Management and Budget designated NASA as an
    executive agent, which gave NASA the authority to make the SEWP contracts
    available to the entire Federal Government as Government-wide acquisition
    contracts. The Economy Act does not apply to Government-wide acquisition
    contracts.

    NASA SEWP Contracts. NASA awarded 26 contracts to 19 vendors that
    supplied various information technology products. The NASA SEWP contracts
    were separated into 9 groupings, known as “classes,” and a group of


                                           1
           8(a) set-asides.1 There were four single-awards classes, each containing one
           single-award contract; five multiple-award classes, consisting of 16 vendors on 19
           contracts; and three 8(a) set-aside contracts. The 26 NASA SEWP contracts
           provided information technology commercial off-the-shelf products and services;
           however, the services cannot be procured separately and cannot exceed 30 percent
           of the total price for the associated hardware or software purchased. Appendix C
           provides a complete list of NASA SEWP contractors by class.

           DoD FY 2005 Use of NASA SEWP Contracts. As of October 11, 2005, DoD
           contracting offices awarded 6,569 orders, valued at $343.2 million, against the
           NASA SEWP contracts in FY 2005. Using the DoD activity address codes, we
           identified the DoD contracting offices that awarded 2,841 of the 6,569 orders.
           We could not identify the remaining orders because the delivery order number
           provided by NASA OIG did not contain a DoD activity address code. The value
           of the identifiable DoD orders was approximately $302.6 million, which
           represented 88 percent of the total DoD orders awarded on NASA SEWP in
           FY 2005. Of the 238 contracting offices that awarded the 2,841 identifiable
           orders, we visited 6 DoD sites that awarded 1,336 orders valued at approximately
           $155.8 million.

           NASA and DoD Roles. NASA administers the SEWP contracts and provides a
           program office to process orders that user agencies issue. Orders awarded on the
           NASA SEWP contracts were direct acquisitions; therefore, DoD contracting
           officials issued and made all of the award decisions for orders placed against the
           NASA SEWP contracts. Generally, DoD program personnel identified the
           requirement and obtained funding from the financial and accounting office, which
           determined the appropriate fund type for the purchase. The program personnel
           provided the clearly defined requirement and funding to the DoD contracting
           office, which then determined which contract to use.

           Contracting officials had different methods for determining which contract would
           be best to satisfy the requirement. Some contracting officers had previously used
           the NASA SEWP contracts and indicated that the contracts could satisfy many
           information technology needs that DoD contracts could not. Other contracting
           officers knew of individual contractors that could supply the required items, so
           they contacted the contractors directly. Some contracting officials used the
           NASA SEWP on-line tool to request quotes, while other contracting officials
           directly contacted contractors and requested the contractor provide its best price.
           The quotes provided on the NASA SEWP contracts were to include a separate fee
           for NASA. NASA charged a fee for orders over $2,500 to use the contracts.
           Generally, NASA charged 0.65 percent of the total dollar amount of the items
           procured, but the fee could not exceed $10,000. Contracting officials then chose
           the contractor for award, typically based on low price and delivery schedule, and
           used the NASA SEWP Web site to award the contract.

           As part of the service provided by NASA, the agency reviewed orders over
           $100,000 to determine whether the requested products were within the scope of
           its vendor’s contracts. If the order was within the scope of the contract, NASA

1
    An 8(a) set-aside is a program that awards certain acquisitions exclusively to small disadvantaged
    business concerns.



                                                       2
           approved the order. Once the order was approved, the order was forwarded to the
           vendor, who was then responsible for supplying the items to DoD. NASA was
           not involved in the funding of the orders and did not receive or track funds other
           than its fee. DoD was solely responsible for vendor payment and the vendor was
           responsible for paying NASA its fee.

           NASA SEWP Tools. The NASA SEWP Web site provided tools to assist
           contracting officials in the procurement process. The tools assisted contracting
           officials in conducting market research and providing fair opportunity. The tools
           included product search, request for quote, and request for information. The
           product search feature was capable of searching by product description,
           manufacturer number, or NASA SEWP contract line item number. In addition,
           the product search enabled the end user to determine if the desired products were
           available, which vendors could supply the items, and which class supplied the
           items. The request for quote tool generated an e-mail request to the vendors the
           contracting official selected.


Objectives
           Our overall audit objective was to review DoD procedures for purchases through
           NASA. Specifically, we examined the policies, procedures, and internal controls
           to determine whether DoD had a legitimate need to use NASA, whether DoD
           clearly defined requirements, whether NASA and DoD properly used and tracked
           funds, and whether NASA complied with defense procurement requirements. We
           also examined how NASA accepted and fulfilled the DoD requirements. See
           Appendix A for a discussion of the scope and methodology. See Appendix B for
           prior coverage related to the objectives.


Review of Internal Controls
           At the sites visited, we identified material internal control weaknesses as defined
           by DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996.2 DoD organizations were required to develop policies for
           awarding orders using non-DoD contracts. The sites we visited had problems
           with policy development, implementation, and execution. Also, the regulations
           and statutes associated with contracting and funding should be incorporated into
           the internal controls for DoD organizations. Contracting, financial, and
           accounting officials should have the necessary training and knowledge to properly
           execute the orders. Contracting, financial, and accounting officials were not
           complying with regulations and statutes. Implementing the recommendations in
           this report should improve contracting procedures for orders awarded using non-
           DoD contracts. We are making no recommendations related to funding problems
           because Inspector General audit report, “Potential Antideficiency Act Violations
           on DoD Purchases Made Through Non-DoD Agencies,” due out in FY 2007,

2
    On January 4, 2006, this instruction was canceled and replaced by DoD Instruction 5010.40, “Managers’
    Internal Control (MIC) Program Procedures.”



                                                     3
contains recommendations that should correct the material funding weaknesses
identified in this report. A copy of these reports will be provided to the senior
official responsible for internal controls in the Office of the Under Secretary of
Defense (Comptroller)/Chief Financial Officer.




                                      4
           DoD Use of the NASA Scientific and
           Engineering Workstation Procurement
           Contracts
           DoD contracting and program personnel did not comply with acquisition
           rules and regulations when using non-DoD contracts. DoD financial and
           accounting officials did not comply with appropriation laws and
           regulations. Of the 111 orders reviewed, valued at approximately
           $85.9 million, 98 were either improperly executed, improperly funded, or
           both. Specifically,

                  •   71 orders, valued at $73.4 million, had little or no justification
                      in the files for using a non-DoD contract vehicle;

                  •   69 orders, valued at $49.5 million, were awarded without
                      providing fair opportunity to all contractors qualified under the
                      multiple-award contracts;

                  •   26 orders, valued at $25 million, had inadequate award
                      documentation; and

                  •   14 orders, valued at $19.6 million, were funded in a manner
                      that resulted in potential Antideficiency Act violations.

           Most DoD organizations implemented their policies for using non-DoD
           contracts after the January 1, 2005, deadline set by the Principal Deputy
           Under Secretary of Defense (Comptroller) and the Acting Under Secretary
           of Defense (Acquisition, Technology, and Logistics) in the memorandum
           “Proper Use of Non-DoD Contracts,” October 29, 2004, (DoD October
           29, 2004, Memorandum) and also inadequately executed the organization-
           specific policies for using non-DoD contracts. In addition, contracting
           officials were unaware of, did not follow, or misinterpreted regulations.
           Furthermore, financial and accounting officials misinterpreted, did not
           know, or did not follow regulations. As a result, DoD has no assurance it
           received the best value, competition was limited, and funds were not used
           as intended by Congress.


Orders Reviewed
    We visited 6 of the 10 DoD contracting offices that spent the highest dollar
    amount on the NASA SEWP contracts in FY 2005. At the six sites, we selected
    orders that had the highest dollar values or that were awarded at the end of the
    fiscal year. Overall, we reviewed 111 orders valued at approximately




                                         5
     $85.9 million. The sites visited, the number of orders reviewed at each site, and
     their respective dollar values are shown in the following table.

                                  Summary of Site Visits
                                              Number of Orders   Value of Orders
                  Sites Visited
                                                 Reviewed           Reviewed
            Space and Naval Warfare
                                                    20                $22,988,994
           Systems Center Charleston
            Space and Naval Warfare
                                                    32                  3,376,304
           Systems Center San Diego
           6th Contracting Squadron,
                                                    13                  3,672,829
             MacDill Air Force Base
           Electronic Systems Center,
                                                    20                 10,553,029
            Hanscom Air Force Base
         Defense Information Technology
        Contracting Office National Capital         10                 12,676,518
                     Region
         Defense Information Technology
               Contracting Office,                  16                 32,584,767
              Scott Air Force Base
                      Total                         111               $85,852,441




Contracting Criteria
     Federal Acquisition Regulation. Federal Acquisition Regulation (FAR) Subpart
     4.8, “Government Contract Files,” prescribes the requirements for establishing,
     maintaining, and disposing of contract files. FAR 4.801 states that the
     documentation in the files must be sufficient to constitute a complete history of
     the transaction. FAR 4.802 states that a contract file must consist of documents
     that detail the basis for the acquisition and the award. FAR 4.803 lists the records
     that are normally contained in the contract files, including source selection
     documents.

     FAR 16.505, “Ordering,” governs orders under multiple-award contracts,
     including regulations for fair opportunity and decision documentation for orders.

             Fair Opportunity. For orders exceeding the $2,500 threshold and issued
     under multiple-delivery-order or multiple-task-order contracts, the contracting
     officer must provide each awardee a fair opportunity to be considered for award.
     However, the fair opportunity process has the following exceptions.

            •    The agency need for the supplies or services is so urgent that
                 providing a fair opportunity would result in unacceptable delays.

            •    Only one awardee is capable of providing the supplies or services
                 required at the level of quality required because the supplies or
                 services ordered are unique or highly specialized.




                                               6
           •   The order must be issued on a sole-source basis in the interest of
               economy and efficiency as a logical follow-on to an order already
               issued under the contract, provided that all awardees were given a fair
               opportunity to be considered for the original order.

           •   It is necessary to place an order to satisfy a minimum guarantee.

           Award Selection Documentation. The contracting officer must
    document in the contract file the rationale for placement and price of each order,
    including the basis for award. Also, the contract file must identify the basis for
    using an exception to the fair opportunity process.

    Defense Federal Acquisition Regulation Supplement Criteria. Defense
    Federal Acquisition Regulation Supplement (DFARS) Subpart 217.78, “Contracts
    or Delivery Orders Issued by a Non-DoD Agency,” implemented the DoD
    October 29, 2004, Memorandum, which introduced controls to ensure that non-
    DoD contracts were the best method to satisfy DoD requirements. The
    memorandum required DoD organizations to conduct the reviews on orders
    awarded on or after January 1, 2005, and with values greater than the simplified
    acquisition threshold. DFARS 217.7802, “Policy,” states that the procedures for
    review should include:
               (a) Evaluating whether using a non-DoD contract for the
                   acquisition is in the best interest of DoD. . .
               (b) Determining that the tasks to be accomplished or supplies to
                   be provided are within the scope of the contract to be used;
               (c) Reviewing funding to ensure that it is used in accordance with
                   appropriation limitations;
               (d) Providing unique terms, conditions, and requirements to the
                   assisting agency for incorporation into the order or contract as
                   appropriate to comply with all applicable DoD-unique
                   statutes, regulations, directives, and other requirements; and
               (e) Collecting data on the use of assisted acquisition for analysis.



Compliance with Acquisition Rules
    DoD contracting and program personnel did not comply with acquisition rules
    and regulations when using the NASA SEWP contracts. Contracting problems
    involved inadequate justifications for using non-DoD contracts because DoD
    organizations implemented their policies for the use of non-DoD contracts after
    January 1, 2005, the deadline set by the DoD October 29, 2004, Memorandum.
    Furthermore, contracting and program officials inadequately executed the DoD
    organization-specific policies that were implemented. Contracting problems also
    included contractors not being given a fair opportunity and inadequate contract
    documentation, which occurred because contracting officers misused the FAR
    and other guidance. Appendixes D and E provide details of each order’s
    contracting problems.




                                             7
Inadequate Justifications. Contracting officials did not prepare or inadequately
prepared justifications for using non-DoD contracts. To meet the requirements of
the DoD October 29, 2004, Memorandum, DoD organizations had to conduct an
initial review of existing DoD contract vehicles to determine whether one of those
could satisfy the requirements, delivery schedules, and pricing.

Contracting officials at two sites did not review contracts offered by DoD entities
other than their own. Contracting officials at these two sites justified the need for
going outside of DoD by stating that their specific command or Service did not
have any contracts that could meet the requirements. At Space and Naval
Warfare Systems Center (SSC) San Diego, contracting officers stated that the
NASA SEWP contracts had to be used because SSC San Diego did not have
existing contracts to satisfy the requirements. However, the contracting officers
did not disclose which specific DoD contracts were evaluated, disclose the extent
to which market research was performed, or document their conclusion that
NASA was the best contract to use. Also, at Electronic Systems Center, Hanscom
Air Force Base, contracting personnel stated that the NASA SEWP contracts had
to be used because existing Air Force contracts could not satisfy delivery
requirements. However, personnel at these activities did not determine that they
had a legitimate need to use the NASA SEWP contracts nor that other DoD
contracts could not satisfy the requirement. Several contracting vehicles existed
for the acquisition of information technology products and services that were
awarded within DoD by the Army, Navy, and Air Force.

Of the 111 orders we reviewed, 71 valued at $73.4 million were awarded after
January 1, 2005, and were over $100,000; therefore, they required a justification
for use of a non-DoD contract. However, contracting officials did not provide a
justification for use of a non-DoD contract for 50 of the 71 orders, valued at
$62.1 million. The 21 justifications contracting officials completed were not
sufficient to satisfy the DFARS requirement. Furthermore, contracting officials
awarded 17 orders, valued at $16.8 million, without completing a justification
even after the DoD organizations implemented their specific policies that outlined
justification requirements for using non-DoD contracts.

Inadequate Policy Implementation and Execution. DoD organizations
inadequately implemented and contracting and program personnel inadequately
executed Military Department and agency-specific policies for placing orders on
non-DoD contracts. The DoD October 29, 2004, Memorandum gave DoD
organizations approximately 2 months to develop and disseminate their specific
policies for use of non-DoD contracts; however, only one site implemented its
policy by the January 1, 2005, deadline. The other sites took several months to
implement their policies, and one site took over a year to implement its policy.
Because most DoD organizations implemented the policies after the required
deadline, contracting and program officials were left without formal guidance on
the requirements for justifying the use of non-DoD contracts.

When contracting and program officials received the policies, the officials
executed the policies inadequately. Poor policy execution occurred because
contracting and program officials did not understand the importance of
identifying existing DoD contracts that could satisfy the requirements or did not
put forth the effort necessary to determine whether a non-DoD contract was in the


                                      8
best interest of the Government. Furthermore, contracting officers did not
adequately complete or document the non-DoD award justifications.

The sites we visited implemented their policies for using non-DoD contracts from
December 20, 2004, through January 20, 2006. Because some of the policies
were not implemented by the required deadline, orders awarded on non-DoD
contracts may not have been justified. In addition, some policies required that a
checklist or form be prepared that documented the procedures the contracting or
program officials performed when justifying the use of a non-DoD contract.
However, contracting officers did not successfully complete the forms. Every site
visited either implemented their policy after the January 1, 2005, deadline or
improperly executed the policy.

       SSC Charleston. SSC Charleston had the earliest policy implementation:
December 20, 2004. The policy provided contracting officers with specific
guidance on how to adequately justify the use of a non-DoD contract. The policy
required the contracting officer to
           . . . discuss the market research conducted. Identify, by contract
           number and contractor, Spawar [Space and Naval Warfare
           Systems Command], Navy, and DoD contracts that were
           considered as alternate vehicles for meeting the requirement.
           Discuss why these vehicles were not chosen in favor of a non-DoD
           contract vehicle. This item may not be left blank. If no
           contracts are listed, explain why.

        Of the 20 orders reviewed, 16 required a justification. However,
contracting officers failed to justify 12 of the 16 orders and inadequately justified
the remaining 4 orders. For those four orders, the contracting officers did not
state that DoD contracts had been reviewed or why DoD contracts had not been
reviewed, as was required. For two of the four orders, the contracting officer used
that section of the justification to state that the purchase was sole sourced from
the manufacturer, but did not state that a DoD contractor could not sell the item
required. For one of the other two orders, the contracting officer stated that a
request for quote was issued through NASA SEWP to three vendors; however,
one of the vendors was not a NASA SEWP contractor. For the remaining order,
the contracting officer stated that a request for quote was sent through NASA
SEWP. The 16 orders were not justified because contracting officers were either
unaware of the policy or improperly executed the policy.

        SSC San Diego. SSC San Diego implemented its policy on
January 26, 2005. The policy provided the technical requirements officials and
contracting officers with guidance on how to justify the use of a non-DoD
contract. The policy required the technical requirements officials to coordinate
with contracting officials to determine whether the requirement could be satisfied
by an existing DoD contract. The technical requirements officials were also
required to complete a memorandum to “make the appropriate assessment and
decision that the contract action is in the best interest of Space and Naval
Warfare” by determining the “non-availability of a suitable contract vehicle
within DoD.” However, the policy should require the technical requirements
officials to document all of the DoD contracts reviewed and why those contracts


                                         9
could not satisfy the requirement. If technical requirements officials could not
identify any DoD contracts, they must explain that conclusion.

        Of the 32 orders reviewed, 8 required a justification. Of those eight
orders, seven were awarded after SSC San Diego implemented its agency-specific
policy. Because SSC San Diego implemented its policy after the January 1, 2005,
deadline set in the DoD October 29, 2004, Memorandum, contracting officers
were unaware of the requirement for justifying one of the eight orders. For the
seven orders awarded after policy implementation, contracting officers failed to
justify one and inadequately justified the remaining six. For the six orders with
inadequate justifications, the contracting officer did not state which DoD
contracts were reviewed or why those contracts could not satisfy the requirement.
The eight orders were not justified because contracting officers were unaware of
the policy or improperly executed the policy.

        6th Contracting Squadron, MacDill Air Force Base. The 6th
Contracting Squadron, MacDill Air Force Base implemented its policy on May
10, 2005. The Assistant Secretaries of the Air Force for Acquisition and for
Financial Management and Comptroller issued the Air Force policy on
December 6, 2004, and provided this policy to all the major commands within the
Air Force. However, the Air Mobility Command did not disseminate the policy
to 6th Contracting Squadron, MacDill Air Force Base until May 10, 2005. It is
unclear why it took the Air Mobility Command until May 10, 2005, to
disseminate the policy. The policy required the contracting officer to “document
the contract file to reflect” that awarding on a non-DoD contract “is in the best
interest of the Air Force.” No justification form was provided to the contracting
offices. Prior to the May 10, 2005, policy implementation, the contracting
officers at 6th Contracting Squadron, MacDill Air Force Base gathered
information from contracting offices outside of the Air Mobility Command and
developed a justification form. The contracting officials began using the
justification form on April 11, 2005. The 6th Contracting Squadron, MacDill Air
Force Base took a proactive approach; however, the form they issued repeatedly
referred to the General Services Administration Federal supply schedules. The
form should not refer to the General Services Administration Federal supply
schedules as the only non-DoD contracts. Also, the policy should require the
contracting officers to document all of the DoD contracts reviewed and why those
contracts could not satisfy the requirement. Lastly, if the contracting officers
could not identify any DoD contracts, they must explain that conclusion.

        Of the 13 orders reviewed, 11 required a justification. Because 6th
Contracting Squadron implemented its policy after the deadline set in the DoD
October 29, 2004, Memorandum, contracting officers were unaware of the
requirement for justifying 4 of the 11 orders. Of the 11 orders, 7 were awarded
after the April 11, 2005, justification form was implemented. However,
contracting officers failed to justify four of the seven orders and inadequately
justified the remaining three orders. For the three orders with inadequate
justifications, the contracting officers did not state which DoD contracts were
reviewed or why those contracts could not satisfy the requirement. The 11 orders
were not justified because contracting officers were unaware of the policy or
improperly executed the policy.



                                    10
        Electronic Systems Center, Hanscom Air Force Base. Electronic
Systems Center, Hanscom Air Force Base implemented its policy on
March 4, 2005. The policy did not provide the contracting officers with specific
guidance on how to justify the use of a non-DoD contractor. The policy required
the program manager to “certify that use of a non-DoD contract is in the best
interests of the Air Force.” The policy should provide specific guidance on how
contracting officers should conduct and document market research. Also, the
policy should require the program manager to document all of the DoD contracts
reviewed and why those contracts could not satisfy the requirement. Lastly, if
program managers could not identify any DoD contracts, they must explain that
conclusion.

       Of the 20 orders reviewed, 14 required a justification. Because Electronic
Systems Center, Hanscom Air Force Base implemented its policy after the
deadline set in the DoD October 29, 2004, Memorandum, program managers were
unaware of the requirement for justifying 6 of the 14 orders. The remaining eight
orders were awarded after Electronic Systems Center, Hanscom Air Force Base
implemented its agency-specific policy. For those eight orders, program
managers inadequately justified using a non-DoD contract because they indicated
only Air Force contracts that could not satisfy the requirement. Program
managers did not provide documentation supporting that the Air Force contracts
could not satisfy the requirement or state whether they reviewed other DoD
contracts. The 14 orders were not justified because program managers either
were unaware of the policy or improperly executed the policy.

        Defense Information Technology Contracting Offices National
Capital Region and Scott Air Force Base. Defense Information Technology
Contracting Office (DITCO) National Capital Region and DITCO, Scott Air
Force Base are two contracting offices within the Defense Information Systems
Agency (DISA); therefore, they are governed by the DISA non-DoD award
policy. DISA did not implement its policy until January 20, 2006. Initially, the
DISA acquisition office issued its non-DoD award policy on July 22, 2005.
However, a DISA official stated that the July 22, 2005, policy was retracted the
same day it was issued because the policy office within the agency felt that it was
their duty to issue the agency’s non-DoD award policy. The policy office issued
the guidance on January 20, 2006, which was over a year later than was required
in the DoD October 29, 2004, Memorandum. In addition, the policy issued on
July 22, 2005, and the policy issued on January 20, 2006, were minimally
different. It is unclear why it took the policy office an additional six months to
issue the policy; the requirements and justification documents contained in both
policies were essentially the same. The policy did not provide the requirements
office with specific guidance on how to justify the use of a non-DoD contractor.
Although the policy states that “the requirement official shall document” that “the
use of a non-DoD contract/order is in the best interests of DoD and DISA,” it
does not provide specific guidance on how the requirements officials should
conduct market research. Also, the policy should require the officials to
document all of the DoD contracts reviewed and why those contracts could not
satisfy the requirement. Lastly, if requirements officials could not identify any
DoD contracts, they must explain that conclusion.




                                    11
       Of the 26 orders reviewed, 22 required a justification. Because DISA
implemented its policy after the deadline set in the DoD October 29, 2004,
Memorandum, the requirements officials were unaware of the need to justify the
22 orders.

Lack of Fair Opportunity for Multiple-Award Vendors. Contracting officers
did not provide multiple-award contractors with a fair opportunity to be
considered for award. According to FAR 16.505, when including multiple-award
contractors in the award process, each multiple-award contractor must be
provided a fair opportunity for award consideration or an exception to fair
opportunity must be documented. Of the 111 orders we reviewed, 69 orders,
valued at $49.5 million, included at least one vendor from a multiple-award class
for consideration. However, contracting officials did not provide fair opportunity
to all vendors in a multiple-award contract and did not adequately document an
exception to fair opportunity.

       •   For 45 of the 69 orders awarded on multiple-award contracts, valued at
           approximately $29.2 million, contracting officials considered
           combinations of NASA SEWP vendors from multiple classes or
           combinations of NASA SEWP, General Services Administration, and
           other non-SEWP vendors, including vendors from the National
           Institute of Health’s Electronic Commodities Store III contracts and
           the open market. However, the contracting officials did not consider
           all contractors in multiple-award contracts. When soliciting vendors
           from more than one contract vehicle, including multiple-award
           contracts, contracting officials must ensure they provide fair
           opportunity to all vendors in the multiple-award contracts.

       •   For 22 of the 69 orders awarded on multiple-award contracts, valued at
           approximately $18.4 million, contract officials awarded on a sole-
           source basis. Only one vendor was considered for award, but there
           was not an adequate justification for the decision. For 13 orders,
           valued at approximately $14.5 million, the contracting officer
           identified the contractor for award before the purchase process began.
           To properly award on a sole-source basis, contracting officials must
           document an exception to fair opportunity.

       •   For 2 of the 69 orders awarded on single-award contracts, valued at
           approximately $1.9 million, contract officials considered multiple-
           award vendors for award. Contracting officials did not provide a fair
           opportunity to all vendors within a multiple-award contract or
           document an exception to fair opportunity. Instead, contracting
           officials considered combinations of NASA SEWP vendors from
           multiple classes or combinations of NASA SEWP and non-SEWP
           vendors. Because all vendors awarded a multiple-award contract have
           the same capabilities to meet requirements, all of the vendors should
           have been considered.

For example, at SSC Charleston, order N65236-05-F-2404 was awarded for
approximately $3 million to Northrop Grumman, a Class 11 and 13 multiple-
award contractor. The contracting officer only requested a bid from Northrop


                                    12
Grumman and did not consider any of the other vendors in Classes 11 and 13—
Unisys, GTSI, and Government Micro Resources. Because Northrop Grumman is
on a multiple-award contract, the contracting officer should have followed
FAR 16.505, which requires that all contractors in a multiple-award be provided a
fair opportunity for contract award.

In another example, the DITCO National Capital Region awarded orders
HC1047-05-F-4075 and HC1047-05-F-4081 for approximately $520,000 and
$1.6 million, respectively. These orders were part of the Global Information Grid
Bandwidth Expansion program. The Global Information Grid Bandwidth
Expansion acquisition plan stated that one contractor would be used for
$10 million in program purchases. However, the contracting officer did not
compete the entire $10 million requirement. The contracting officer competed
only the first order, valued at approximately $830,000, among all 8 contractors in
Class 12 of the NASA SEWP contracts. The request for quote stated that the
awardee would receive all subsequent orders related to the Global Information
Grid Bandwidth Expansion program on a sole-source basis, citing “the logical
follow-on” exception to fair opportunity. Technica Corporation was the only
vendor to provide a complete bid for the order and therefore received the award.

This award was an inappropriate use of the logical follow-on exception. The
contracting officer should have issued the initial request for quote for the entire
$10 million requirement, and provided a fair opportunity to all Class 12 vendors
in the initial request for quote. The contracting officer may have generated more
interest and received lower bids by competing the entire requirement. We do not
believe that the “logical follow-on” exception should be used to maintain the
same contractor by splitting the full requirement into small increments.

Inadequate Documentation. Contracting officials did not consistently prepare
award selection documents. FAR Subpart 4.8 and FAR 16.505 provide
requirements for order documentation. FAR Subpart 4.8 requires that contract
file documents the basis for award. In addition, FAR 16.505 requires contracting
officials to provide decision documents for orders awarded on multiple-award
contracts. The decision documents must state the rationale for placement and
price of each order, including the basis for award or the basis for using an
exception to the fair opportunity process. Of the 111 orders reviewed, 26 orders
that were valued at approximately $25 million did not contain award selection
documents.

For example, SSC Charleston awarded order N65236-05-F-9314 for
approximately $1.8 million to iGov, a multiple-award contractor. The order file
did not contain an award document to indicate why iGov was the only contractor
considered for award. Because the contracting officer did not prepare an award
document, the rationale for the award is unknown, which could affect future
purchases of similar items.

FAR Implementation and NASA SEWP Assistance. DoD contracting and
program officials were unaware of, did not follow, or misunderstood the rules
under which the NASA SEWP contracts operated. Furthermore, DoD officials
did not take advantage of the NASA SEWP Web site and training opportunities.



                                    13
         Basic FAR Knowledge. Contract personnel are required to have
knowledge of the legislation, regulations, and methods used in contracting and the
skill to apply the guidance to specific actions. The FAR is the primary
acquisition regulation in the Federal Government; therefore, contracting officials
should be cognizant and well-versed in FAR criteria and how those criteria relate
to the specific contracting vehicles they use. Contracting officials should have
basic FAR knowledge about providing fair opportunity on multiple-award
contracts and documenting award decisions. In addition, although contracting
officers may receive advice from specialists in law, audit, engineering,
transportation, finance, or other functions, they remain the ones who are
responsible and accountable for the contracts. At each of the sites visited,
contracting officers exhibited a lack of appropriate FAR knowledge. The 69
orders were awarded without fair opportunity because contracting officials
misinterpreted or lacked knowledge of FAR Subpart 8.4, “Federal Supply
Schedules,” FAR Part 13, “Simplified Acquisition Procedures,” or FAR 16.505.

        For 29 of the 69 orders, valued at $18.3 million, contracting officers
followed the General Services Administration Federal supply schedule
procedures. Contracting officials at SSC Charleston; SSC San Diego; 6th
Contracting Squadron, MacDill Air Force Base; and DITCO National Capital
Region stated during interviews that FAR Subpart 8.4 applied to the NASA
SEWP contracts. FAR Subpart 8.4 provides policies and procedures for the
acquisition of goods and services on the General Services Administration Federal
supply schedule and multiple-award schedule contracts. These procedures
include considering a minimum of three vendors for award. However, the NASA
SEWP contracts are single- and multiple-award contracts, not schedules.

        For 40 of the 69 orders, valued at $31.2 million, contracting officers
awarded the orders on multiple-award contracts without providing an adequately
documented exception to fair opportunity. Of the 40 orders, 22 were awarded on
a sole-source basis. Also, contracting officers followed simplified acquisition
procedures for awarding 1 of the 22 sole-source orders. Although only one order
was awarded using simplified acquisition procedures, contracting officers at SSC
San Diego believed that FAR Part 13 applied to NASA SEWP orders with values
less than the simplified acquisition threshold. FAR Part 13 prescribes policies
and procedures for the acquisition of supplies and services, including
construction, research and development, and commercial items, the aggregate
amount of which does not exceed the simplified acquisition threshold, which is
defined in FAR Subpart 2.1, “Definitions,” as $100,000. However, simplified
acquisition procedures do not take precedence over the procedures required for
task orders awarded on multiple-award contracts. In addition, because all items
on the NASA SEWP contracts are commercial off-the-shelf, more than one
vendor should generally be able to supply the required goods.

        Competition and Discounts. Because contracting officials consistently
failed to provide fair opportunity, or solicited only one vendor, the officials did
not always obtain the best price. The NASA SEWP contracts are single- and
multiple-awards with published prices. Although the prices are considered fair
and reasonable, the multiple-awards are still governed by FAR 16.505, which
required fair opportunity. However, when using a single-award contract, the price
can be discounted. When orders were awarded competitively, the product prices


                                    14
were lower than the NASA SEWP list prices. In addition, the NASA SEWP Web
site stated that contract holders could charge less than the listed price. Because
contractors can charge reduced prices, contracting officials should seek these
discounts through competition or by request.

        Portions of 13 orders, totaling $11.1 million of competitive purchases, had
the NASA SEWP list prices documented in the contract file. Had the
Government paid the NASA SEWP list prices, these purchases would have cost
$14.8 million. Thus, by competing these purchases, the Government saved a total
of $3.7 million or 25 percent. Clearly, competing the orders produced better
prices than those listed.

To ensure that contracting officers are making the proper decisions when using
non-DoD contracts, DoD needs to provide specific guidance and training to
contracting officers, emphasizing the need to conduct market research prior to
deciding that a DoD contract cannot satisfy the requirement. This training and
guidance should include instruction on how to search for existing DoD contract
vehicles and should emphasize the importance of this control to minimize making
purchases outside of DoD. The consistent failure to search for available DoD
contracts may have precluded contracting officials from identifying capable
contractors within DoD and saving administrative fees paid to NASA. In
addition, contracting officials were unaware of, did not follow, or misinterpreted
the FAR. Contracting officials should be cognizant of FAR guidelines and their
applicability to different contract types, including multiple-awards, single-awards,
and Federal supply schedules. Consequently, contracting officials should be
reminded that FAR 16.505 governs multiple-award contracts, and that contracting
officials should seek as much price competition as possible.

         NASA SEWP Web Site. The NASA SEWP Web site provided abundant
and clear reminders that FAR 16.505 applies to the multiple-award contracts. The
Web site reminded contracting officials of the appropriate FAR requirements in
the section titled, “Fair Opportunity When Using SEWP Contracts.” The section
details the requirements of market research and fair opportunity and provides
links to the appropriate FAR parts. Further, the Web site’s request for quote and
product search tools assist contracting officials in providing fair opportunity.
When a contracting official selects one of the multiple-award vendors within the
tool, the Web site generates a notification that reminds the contracting official
that fair opportunity is required. The notification also identifies the other vendors
in the multiple-award contract and automatically selects those vendors to receive
a request for quote. In order to not provide fair opportunity, a contracting official
would have to deselect the vendors. Contracting officials either did not take the
time to research the NASA SEWP contracts prior to awarding orders or
disregarded the Web site’s reminders.

        NASA Training Opportunities. As part of the fee to use the SEWP
contracts, NASA provides training to requesting activities on how to use the
NASA SEWP contracts and the tools found on the Web site. Throughout
FY 2005, only 15 DoD offices took advantage of the NASA SEWP free training,
although 238 contracting offices used the NASA SEWP contracts in FY 2005. Of
the sites visited, only SSC Charleston received training prior to our review.
However, SSC Charleston contracting officers continued to award 16 of the 19


                                     15
    multiple-award orders without fair opportunity. We believe that when effectively
    implemented, the NASA SEWP training is still a valuable tool that DoD
    organizations should use. Additional training is required to ensure that
    contracting officials apply the correct FAR guidelines. After our site visit to
    DITCO National Capital Region, the agency took a proactive approach to limit
    future misuse of the NASA SEWP contracts by receiving NASA SEWP training
    on March 1, 2006. Had contracting officials received and effectively
    implemented the NASA SEWP training in conjunction with adequate FAR
    training prior to using the NASA SEWP contracts, improper award procedures
    may have been avoided.


Funding Criteria
    Antideficiency Act. The Antideficiency Act (ADA) is codified in a number of
    sections of title 31, United States Code. The purpose of the ADA is to enforce the
    constitutional budgetary powers residing in Congress with respect to the purpose,
    time, and amount of expenditures made by the Federal Government. Violations
    of other laws may trigger violations of ADA provisions. This audit found
    potential violations of the ADA in section 1341(a)(1)(A), title 31, United States
    Code.

           Purpose Statute. The purpose statute is codified in section 1301, title 31,
    United States Code. A violation of the purpose statute may cause a violation of
    the ADA. The statute states, “appropriations shall be applied only to the objects
    for which the appropriations were made except as otherwise provided by law.”
    The Government Accountability Office Red Book states, “appropriations may be
    used only for their intended purposes.”

           Bona Fide Needs Rule. The bona fide needs rule is codified in section
    1502(a), title 31, United States Code. A violation of the bona fide needs rule may
    cause a violation of the ADA. To use appropriated funds, DoD organizations
    must have a bona fide need for the requirement in the year the appropriations are
    available for obligation.

            In addition, the Government Accountability Office Red Book, chapter 5,
    section B.4, “Delivery of Materials beyond the Fiscal Year,” states that materials
    purchased in one fiscal year and not delivered until the following fiscal year do
    not violate the bona fide needs rule if the delay in delivery is:

           •   due to production and fabrication of the material, which cannot be
               purchased on the open market at the time needed for use;

           •   due to unforeseen delays to an otherwise properly made obligation; or

           •   for replacement of stock.

             If agencies purchase goods or services and schedule delivery for a
    subsequent fiscal year, one could question whether the contract was made in the
    earlier fiscal year only to obligate funds from an expiring appropriation.


                                        16
       Also, the DoD Financial Management Regulation (FMR), volume 11a,
chapter 2, states that the bona fide needs rule should
       . . . not be construed to preclude procurement lead-time. Thus, where
       materials cannot be obtained in the same fiscal year in which they are
       needed and contracted for, a provision for delivery in the subsequent
       fiscal year does not violate the bona fide needs rule so long as the time
       intervening between contracting and delivery is not excessive and the
       procurement is not for standard commercial items readily available
       from other sources.

DoD Financial Management Regulation Guidance. Annual appropriation acts
define the uses of each appropriation and set specific timelines for use of the
appropriations. However, the DoD FMR, volume 2A, chapter 1, provides
guidelines on most commonly used DoD appropriations for determining the
correct appropriation to use when planning acquisitions.

        Expenses and Investments. All costs are classified as either an expense
or an investment. Expenses are costs of resources consumed in operating and
maintaining DoD and typically are less than the currently approved dollar
threshold of $250,000 for expense and investment determinations. Investments
are costs to acquire capital assets, such as real property and equipment, and are
more than the currently approved dollar threshold of $250,000 for expense and
investment determinations. Costs budgeted in the operation and maintenance
(O&M) appropriation are considered expenses. Costs budgeted in the
procurement appropriation are considered investments. Costs budgeted in the
research, development, test, and evaluation (RDT&E) appropriation include both
expenses and investments.

        Expenses and Investments Conditional Cases. Continuous technology
refreshment is the intentional, incremental insertion of newer technology to
improve reliability, improve maintainability, reduce cost, or add minor
performance enhancement, typically in conjunction with depot or field level
maintenance. The insertion of such technology into end items as part of
maintenance is funded by the O&M appropriations. However, technology
refreshment that significantly changes the performance envelope of the end item
is considered a modification and, therefore, an investment.

       Commercial Off-the-Shelf. All commercial off-the-shelf purchases
should be funded in the procurement or O&M appropriations, as determined by
the expense and investment criteria.

        RDT&E Appropriations. RDT&E requirements, including designing
prototypes and processes, should be budgeted in the RDT&E appropriations. In
general, all developmental activities included in bringing a program to its
objective system are to be budgeted in RDT&E. RDT&E funds are available for
obligation for 2 years.

       Procurement Appropriations. Acquisition and deployment of a
complete system with a cost of $250,000 or more is an investment and should be
budgeted in a procurement appropriation. Complete system cost is the aggregate


                                         17
    cost of all components that are part of, and function together, as a system to meet
    an approved requirement. Procurement funds are available for obligation for
    3 years.

            O&M Appropriations. Expenses incurred in continuing operations and
    current services are budgeted in the O&M appropriations. Modernization costs
    under $250,000 are considered expenses, as are one-time projects, such as
    development of planning documents and studies. O&M funds are available for
    obligation for 1 year.

           Defense Working Capital Fund. The information technology systems
    developed and acquired through the Defense working capital fund are reflected in
    the Capital Budget if the system costs $100,000 or more. Systems costing less
    than $100,000 are funded through the operating budget. Defense working capital
    funds do not have a restriction on the time they are available for obligation.


Compliance with Appropriation Laws and Regulations
    DoD financial and accounting officials did not comply with appropriation laws
    and regulations. We identified 14 incidents of potential ADA violations for
    orders valued at $19.6 million. The potential violations occurred when the
    purpose statute was violated, the bona fide needs rule was violated, or both.
    These conditions existed because financial, accounting, and contracting officials
    were unaware of, did not follow, misinterpreted, or abused the regulatory uses and
    limitations of fund types. Appendix F provides details of each potential violation.

    Potential Purpose Statute Violations. Financial and accounting officials
    provided funding documents citing the wrong appropriation to contract officials,
    resulting in potential purpose statute violations. Volume 2A, chapter 1 of the
    FMR states that commercial off-the-shelf items fall under the expense and
    investment criteria. This criteria states that purchases less than $250,000 should
    be procured by using O&M funds and purchases greater than $250,000 should be
    procured by using procurement funds. Because all items offered on the NASA
    SEWP contracts are commercial off-the-shelf, orders greater than $250,000
    should be purchased using procurement funds. Of the 14 potential ADA
    violations, 6 orders each valued over $250,000 and collectively totaling
    $18.1 million were procured with O&M funds. Of the six orders, five grouped
    the items purchased into lots greater than $250,000, and one listed each item
    separately with a total more than $250,000. Because the orders were greater than
    $250,000, procurement funds should have been used.

    Misinterpretation of the FMR. Financial and accounting officials either were
    unaware of, misinterpreted, or did not follow the FMR. Six orders potentially
    violated the purpose statute by using the wrong appropriation. Financial and
    accounting officials provided O&M funds to procure these orders; however, each
    of the orders exceeded the $250,000 threshold for expenses. Orders exceeding
    the threshold are considered investments and should have been purchased with
    procurement funds.



                                         18
For one of the six orders, the agency that provided the funds (Defense Security
Service) stated that it had been appropriated only O&M funds. However, the
financial and accounting officials should have requested procurement funds to
fulfill the requirement, because the purchase was for $10.9 million, which
exceeds the O&M ceiling of $250,000.

For five of the six orders, the financial and accounting officials routinely did not
follow FMR guidelines.

       •   For two of the six orders, financial and accounting officials either did
           not know, misinterpreted, or did not follow the regulations that state
           the $250,000 threshold for O&M purchases. For example, the
           financial and accounting personnel at United States Central Command
           believed that the $250,000 threshold for use of O&M funds only
           applied to certain types of equipment.

       •   For one of six orders, budget officials incorrectly budgeted a $738,000
           purchase with O&M funds, exceeding the $250,000 threshold. The
           financial and accounting officials determined which funds to use by
           reviewing the budget and the FMR. However, despite reviewing the
           FMR, financial and accounting officials did not correct the fund type.

       •   For two of the six orders, financial and accounting officials
           misinterpreted or did not follow the technology refreshment
           conditional case. The FMR provides a conditional case that permits
           the use of O&M funds for purchases greater than the $250,000
           threshold. The conditional case defines technology refreshment as
           “the intentional, incremental insertion of newer technology to improve
           reliability, improve maintainability, reduce cost, and/or add minor
           performance enhancement.” For one order, the financial and
           accounting officials considered the project a technology refreshment,
           although it was for the installation of a system at new sites. The
           conditional case also states that procurement funds should be used
           when the purchase “significantly changes the performance envelope of
           the end item.” For the other order, financial and accounting officials
           disregarded this portion of the criteria. For example, DITCO, Scott
           Air Force Base awarded order HC1013-05-F-2810 for $4.1 million on
           behalf of DISA. The purchase was a router upgrade for the
           Standardized Tactical Entry Point Information Assurance Tools at all
           sites worldwide and would increase bandwidth. DITCO, Scott Air
           Force Base funding personnel stated that the upgrade was technology
           refreshment and that the conditional case for technology refreshment
           governed the purchase and permitted the use of O&M funds. We
           believe the purchase significantly increased the bandwidth, which
           significantly increased the performance of the system. Therefore, they
           should have used procurement funds.

In addition, five of the six orders were placed at the end of the fiscal year, from
August 25, 2005, through September 28, 2005. Because O&M funds expire at the
end of the fiscal year in which they were appropriated, financial and accounting
officials may have been trying to use the funds before they had to be returned to


                                     19
the treasury. Of these five orders, four also potentially violated the bona fide
needs rule.

Potential Bona Fide Needs Rule Violations. Contracting officials awarded
numerous orders at the end of the fiscal year. The delivery of some of these items
continued or began in the following fiscal year, resulting in potential bona fide
needs rule violations. An appropriation is available for payment of costs incurred
only during the period in which the fund is available for use. Thus, when
commercial off-the-shelf purchases were made, contracting officials should have
ensured that the purchases were funded with money appropriated for the period in
which the products would be required and delivered. All goods purchased through
NASA SEWP were commercial off-the-shelf and therefore have a short lead time
for delivery. If the Government did not need the items until FY 2006, then the
purchase should have been made with funds that were available for use in
FY 2006.

Of the 14 potential ADA violations, 12 orders, valued at $7.9 million, were
potential bona fide needs rule violations. For 11 of the 12 orders, goods were
received entirely in FY 2006, from October 3, 2005, through January 6, 2006.
For 1 of the 12 orders, the delivery of goods began in FY 2005; however, some of
the goods were not delivered until FY 2006.

For example, DITCO National Capital Region awarded order HC1047-05-F-4552
for approximately $980,000 on September 28, 2005, two days before the end of
FY 2005. The purchase was for internet software, routing engine boards,
forwarding engines, licenses, power cables, ethernet interfaces, and other items
for the expansion of the Combined Federated Battle Lab. The purchase was
funded with O&M funds, which expired at the end of FY 2005. The goods were
not accepted until November 4, 2005. Because DITCO National Capital Region
had no reasonable expectation of receiving the item in FY 2005 and the items
neither required a long lead time, nor were to replenish stock, we believe the
purchase potentially violated the bona fide needs rule.

Misinterpretation of the Bona Fide Needs Rule. Contracting officials were
unaware of, did not follow, or misinterpreted the bona fide needs rule. DoD
officials misinterpreted the bona fide needs rule to mean that using expiring funds
at the end of the fiscal year was acceptable as long as the funds were awarded
prior to the end of the fiscal year. The goods provided on the NASA SEWP
contracts are commercial off-the-shelf, which are readily available in the
commercial market place. Because of this, the customers should have received
the commercial off-the-shelf goods purchased with expiring funds prior to the end
of the fiscal year. If the goods were needed in FY 2005, then proper planning,
such as identifying the requirement earlier in the year, would have resulted in
delivery within the fiscal year.

Financial and accounting officials who authorize and certify funding documents
should be cognizant of funding guidelines and be familiar with the appropriate
uses and limitations of common appropriations, including O&M, RDT&E,
procurement, and working capital. Because the FMR was not properly applied at
the sites visited, financial, accounting, and contracting officials should be
provided with clear and specific guidance on the use of O&M and expiring funds.


                                     20
    Furthermore, identifying the bona fide need earlier in the year and awarding the
    contract earlier in the year would have prevented the potential bona fide needs
    rule violations.

    We identified 14 potential Antideficiency Act violations, which are listed in
    Appendix F. Recommendations for the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer to initiate preliminary reviews regarding
    those potential violations are in the audit report, “Potential Antideficiency Act
    Violations on DoD Purchases Made Through Non-DoD Agencies,” due out in
    FY 2007.


Conclusion
    The consistent failure to determine the availability of a DoD contract may have
    precluded contracting officials from identifying capable contractors. The intent
    of multiple-award contracting is to use a streamlined acquisition process to
    achieve competition without increasing the Government’s risk; however, the
    failure to provide fair opportunity to the SEWP multiple-award contractors
    prevented the Government from fully achieving the savings available from price
    competition. Furthermore, training is needed to ensure that misapplication of
    procurement regulations is not passed on among contracting officials.

    DoD officials were unaware of, misinterpreted, or did not follow the FMR, which
    caused 14 potential ADA violations. The potential violations included violating
    the purpose statute, the bona fide needs rule, or both. Better acquisition planning
    may have precluded some of the potential violations. Furthermore, DoD officials
    who decide which types of funds to use for goods and services need clear
    guidance on the proper use and timing of funds. Expired funds should be returned
    to the treasury.


Management Comments on the Finding and Appendix F and
 Audit Response
    Department of the Navy Comments. The Department of the Navy provided
    draft report comments signed by the Chief of Staff/Policy to the Deputy Assistant
    Secretary of the Navy for Acquisition Management (Chief). The Chief
    questioned whether order N66001-05-F-Q174 represented a potential bona fide
    needs rule violation. The Chief stated that the need was identified in May 2005,
    the requirement was submitted for procurement in August 2005, and both
    procurement lead time and delivery lead time were reasonable.

    Audit Response. We disagree with the Chief that the order does not potentially
    violate the bona fide needs rule. For this order, the items were commercial and
    sufficient time should have been available to receive the goods within the year
    that the funds were available for use. However, the order stated that the items
    were scheduled for delivery on October 7, 2005, which was in FY 2006. Because
    the order had a FY 2006 scheduled delivery, FY 2006 operations and maintenance


                                         21
funds should have been used. Orders placed using expiring money should be
scheduled for delivery and delivered within the fiscal year of the money’s use.

United States Special Operations Command Comments. Although not
required to comment, the United States Special Operations Command provided
the following comments on the finding and Appendix F. For the full text of the
comments, see the Management Comments section of the report.

The United States Special Operations Command (USSOCOM) provided draft
report comments signed by the Comptroller. The Comptroller agreed with the
potential purpose statute violation for order FA4814-05-F-A154. USSOCOM has
initiated a preliminary investigation to determine if it was inappropriate to use
O&M funds for order FA4814-05-F-A154. However, the Comptroller did not
agree with the potential bona fide needs rule violations for orders
FA4814-05-FA717, FA4814-05-FA860, FA4814-05-FA895, and
FA4814-05-FA917. The Comptroller provided quotes from the GAO Principles
of Appropriations Law, third edition, volume I, and the DoD Financial
Management Regulation, volume 11A, chapter 2, paragraph 020508. These
quotes state respectively,
       . . .where materials cannot be obtained in the same fiscal year in which
       they are needed and contracted for, provisions for delivery in the
       subsequent year do not violate the bona fide needs rule as long as the
       time intervening between contracting and delivery is not excessive and
       the procurement is not for standard commercial items readily available
       from other sources.

       . . .where materials, for example, cannot be obtained in the same fiscal
       year in which they are needed and contract for, a provision for delivery
       in a subsequent fiscal year does not violate the bona fide need rule so
       long as the time intervening between contracting and delivery is not
       excessive and the procurement is not for standard commercial items
       readily available from other sources.

Furthermore, the Comptroller did not agree with the potential purpose statute
violation for wrongful use of O&M funds in order FA4814-05-F-A895. The
Comptroller stated that the goods purchased were not for a system, but were “a
variety of parts and smaller items to include modems, scalers, drives, cable,
memory, back up platforms, labor, licensing and lots of software.”

Audit Response. We disagree with the Comptroller that the orders do not violate
the bona fide needs rule. As stated in the bona fide needs rule criteria provided in
this report and the criteria quoted by the Comptroller, delivery in the subsequent
fiscal year is only permitted if the “procurement is not for standard commercial
items.” The orders were for a file storage and server system, another server,
assorted hardware, assorted software, and licenses. All of these items are
commercial off-the-shelf items as are all items on the NASA SEWP contracts. In
addition, the goods for orders FA4814-05-FA717, FA4814-05-FA860,
FA4814-05-FA895, and FA4814-05-FA917 were scheduled for delivery in the
subsequent fiscal year. To prevent violations of the bona fide needs rule, the
Comptroller should provide requirements to contracting offices and contracting



                                         22
    offices should issue orders with sufficient time for goods to be delivered within
    the fiscal year.

    We agree that the use of O&M funds for order FA4814-05-F-A895 was
    appropriate. We have removed this order from our discussion of potential
    violations of the purpose statute.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. In response to management comments, we modified
    Recommendation 1.a. by removing the necessity for the documentation to be a
    determination and finding. Our recommendation now states that the conclusions
    need to be in writing, but does not specify the type of document. We simply want
    the contract files to contain adequate documentation to justify the use of a non-
    DoD contract, because we found that type of documentation lacking or
    insufficient at the sites visited.

    1. We recommend that Acquisition Executives for the Navy, Air Force, and
    Defense Information Systems Agency:

           a. Require contracting officers conducting direct acquisitions for
    amounts greater than the simplified acquisition threshold to determine
    whether the use of non-DoD contracts is in the best interest of the
    Government and verify that the required goods, supplies, or services cannot
    be obtained as conveniently or economically by using a DoD contract. The
    contracting officer or another official designated by the agency head should
    document those conclusions in writing.

    Department of the Navy Comments. The Department of the Navy provided
    draft report comments signed by the Chief of Staff/Policy to the Deputy Assistant
    Secretary of the Navy for Acquisition Management (Chief). The Chief partially
    concurred with the first part of the recommendation, but stated, “research is
    limited to command-available contracts and other contracts” of which the
    contracting officer has knowledge, because “there is no existing ‘DoD-Wide
    Contract Search Tool’ to satisfy a comprehensive search of all DoD contracts
    available.” The Chief concurred in principle with the second part of the
    recommendation, by agreeing that the conclusions should be documented in the
    contract file, but added that the requirement for a separate determination and
    finding is unnecessary.

    Audit Response. Because the Chief limited research for direct acquisitions, his
    comments do not fully meet the intent of the recommendation. We disagree that
    contracting officers need to review only command-available contracts and other
    DoD contracts of which the contracting officers are already aware. Defense
    Federal Acquisition Regulation Supplement 217.7802 requires DoD to evaluate
    “whether the use of a non-DoD contract is in the best interest of DoD.” We do
    not believe that this evaluation can be adequately supported without making an
    effort to conduct a thorough review of available DoD contracts. This means


                                        23
performing some research into all contracts available, not just the contracts that
are readily available. When Navy contracting officers award a new contract, their
research is not limited to command-available contracts, and the research may
include a review of the marketplace to ensure DoD is getting the best value. We
believe that the same research should be conducted before placing orders for
direct acquisitions. We request that the Chief reconsider the research limitation.
Accordingly, we request that the Chief provide comments on the final report.

As noted previously, we revised the recommendation based on the Chief’s
comments on the documentation requirement.

Department of the Air Force Comments. The Department of the Air Force
provided draft report comments signed by the Assistant Secretary of the Air Force
(Acquisition) (Assistant Secretary). The Assistant Secretary concurred with the
recommendation and stated,
       Air Force Contracting along with Air Force Finance have formed a
       working group to address [the recommendation] and other issues with
       interagency contracts to find ways to ensure better compliance with
       current policies. The Working group will recommend that the current
       certification be reemphasized as a determination and finding signed by
       the requirements official. For acquisition of services, the Services
       Designated Official will sign the D&F [determination and finding].

The Assistant Secretary estimates that working group’s date of completion will be
December 2006.

Audit Response. Because the Assistant Secretary only indicates that the
requirements official must sign the certification, her comments do not fully meet
the intent of the recommendation. We believe that the contracting officer should
also sign the certification document, because it is the responsibility of the
contracting officer to determine the best contract and contractor to meet a
requirement. We request that the Assistant Secretary reconsider her comments
and also require contracting officers to sign the certification. Accordingly, we
request that the Assistant Secretary provide comments on the final report.

Defense Information Systems Agency Comments. The Defense Information
Systems Agency (DISA) provided draft report comments signed by the Director
for Procurement, Chief of the Defense Information Technology Contracting
Organization (Director of DITCO Procurement). The Director of DITCO
Procurement concurred with the recommendation. On July 22, 2005, and January
20, 2006, the DISA Vice Director issued a memorandum titled, “Proper Use of
Non-DoD Contracts,” which addressed both direct acquisitions and assisted
acquisitions of supplies or services. The memorandum also incorporated a
requirements official’s checklist for use of non-DoD contracts, in place of a
determination and finding, to validate the use of a non-DoD contract and
document that appropriate funding was used. The Director of DITCO
Procurement stated that DISA will modify its checklist to include more detail.
The proposed implementation date is first quarter of FY 2007.




                                        24
Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments. Although not required to comment on Recommendation
1.a., the Office of the Under Secretary of Defense for Acquisition, Technology,
and Logistics [USD(AT&L)] provided comments signed by the Director of
Defense Procurement and Acquisition Policy (Director of Defense Procurement).
The Director of Defense Procurement stated that DoD is currently reviewing all
courses to ensure that the subjects included in the recommendation are covered
properly. The Director of Defense Procurement also stated that the Defense
Acquisition University may play a role in developing appropriate course
materials.

Audit Response. We commend USD(AT&L) for taking a proactive role in
ensuring that training courses contain the subjects discussed in the
recommendation.

       b. Develop a training course that instructs contracting and other
program office personnel on proper acquisition planning and contract
administration for direct acquisitions. The course should also emphasize the
bona fide needs rule and appropriations law.

Department of the Navy Comments. The Chief partially concurred. The Chief
stated that it would be counterproductive for the Navy, Army, and Air Force to
develop component-centric training on the proper use of interagency acquisitions.
In addition, the Chief stated that the Navy was participating in an “OSD [Office
of the Secretary of Defense] sponsored inter-component working group to provide
comprehensive guidance on proper use of interagency acquisition.” One of the
objectives of the working group was to recommend that DoD establish a DoD-
wide training course on interagency acquisitions.

Audit Response. The comments meet the intent of our recommendation.
However, we do not believe that component-centric training on the proper use of
interagency acquisitions would be counterproductive, because each component
developed different procedures and requirements for justifying the use of a non-
DoD contract, as was required by Defense Federal Acquisition Regulation
Supplement 217.7802. The training, whether component-centric or DoD-wide,
should emphasize the procedures for proper use of non-DoD contracts, Federal
Acquisition Regulation guidelines for the types of non-DoD contracts used, the
purpose statute, the bona fide needs rule, and appropriations law. No further
comments are necessary.

Department of the Air Force Comments. The Assistant Secretary concurred
with our recommendation and stated that an Air Force Contracting and Financial
Management working group will “produce a guidebook. . .that will give step-by-
step procedures. . .on how to prepare and execute interagency acquisitions, both
directed and assisted, focused toward program and project managers.” The
guidebook will “highlight bona fide needs rule and Antideficiency Act
requirements.” In addition, “the working group will address compliance with
appropriations law for financial managers.”

Audit Response. Because procedures for contracting officers are not addressed,
the comments do not fully meet the intent of our recommendation. Although we


                                   25
commend the Air Force for developing a comprehensive guidebook, the
guidebook should also address procedures for contracting officers, because
contract execution falls under the purview of the contracting officer. We request
the Assistant Secretary reconsider the Air Force’s comments and add contracting
officer procedures to the guidebook. Accordingly, we request the Assistant
Secretary provide comments on the final report.

DISA Comments. The Director of DITCO Procurement concurred with the
recommendation. The Director of DITCO Procurement stated, “DISA recognized
the need for training regarding the use of non-DoD contracts and provided
Economy Act D&F [determination and finding] training on March 16, 2004.”
DISA will provide additional Economy Act training, which will specifically
address direct acquisitions, appropriation law, and the bona fide needs rule. The
proposed implementation date is the first quarter of FY 2007.

Audit Response. Because the training is limited to non-DoD contracts that are
governed by the Economy Act, the comments do not fully meet the intent of the
recommendation. We commend management for providing additional training.
However, the training should not be limited to non-DoD contracts that are
governed by the Economy Act. This report addresses the National Aeronautics
and Space Administration’s Scientific and Engineering Workstation Procurement
contracts, which are not governed by the Economy Act but still require
justification for their use, as prescribed in Defense Federal Acquisition
Regulation Supplement 217.7802. In addition, DISA should train contracting
officers on the agency’s policy for using non-DoD contracts so the contracting
officers can effectively execute the policy. We request the Director of DITCO
Procurement reconsider the DISA training plan and training on the use of non-
DoD contracts that are not governed by the Economy Act and on procedures to
properly execute the DISA policy for using non-DoD contracts. Accordingly, we
request the Director provide comments on the final report.

2. We recommend that Under Secretary of Defense for Acquisition,
Technology, and Logistics:

     a. Disseminate a memorandum to all DoD contracting offices to
reemphasize the following:

              (1) That contracting officials are responsible for knowing and
adhering to the regulations for different contract types, including single-
award contracts, multiple-award contracts, and Federal supply schedules.

Office of USD(AT&L) Comments. The Director of Defense Procurement
concurred with the recommendation. The Director of Defense Procurement stated
that DoD will issue a policy memorandum emphasizing competition requirements
when using non-DoD contracts. The Director of Defense Procurement plans to
issue the policy memorandum on November 15, 2006.

              (2) Although the prices obtained on the National Aeronautics
and Space Administration Scientific and Engineering Workstation
Procurement contracts are considered fair and reasonable, contract holders
are permitted to charge less than the list price. Therefore, contracting


                                    26
officers should seek discounts when awarding orders on the single-award
contracts.

Office of USD(AT&L) Comments. The Director of Defense Procurement
concurred with the recommendation. The Director of Defense Procurement is
coordinating with the National Aeronautics and Space Administration to add
language to the Web site for the Scientific and Engineering Workstation
Procurement contracts encouraging DoD contracting officers to seek discounts
when using the contracts.

              (3) Contracting officers are required to follow Federal
Acquisition Regulation 16.505 when placing orders on multiple-award
contracts. Contracting officers must provide a fair opportunity to all
contractors in a multiple-award contract.

Office of USD(AT&L) Comments. The Director of Defense Procurement
concurred with the recommendation. The Director of Defense Procurement stated
that DoD will issue a policy memorandum emphasizing competition
requirements, including fair opportunity, when using non-DoD contracts. The
Director of Defense Procurement plans to issue the policy memorandum on
November 15, 2006.

              (4) Federal Acquisition Regulation Subpart 8.4 applies only to
the General Services Administration Federal supply schedule and certain
Department of Veterans Affairs Federal supply schedules, to which General
Services Administration delegated the authority for Department of Veterans
Affairs to procure medical supplies.

Office of USD(AT&L) Comments. The Director of Defense Procurement
concurred with the recommendation. The Director of Defense Procurement stated
that DoD will issue a policy memorandum emphasizing that Federal Acquisition
Regulation Subpart 8.4 does not apply to acquisition placed under the National
Aeronautics and Space Administration Scientific and Engineering Workstation
Procurement contracts. The Director of Defense Procurement plans to issue the
policy memorandum on November 15, 2006.

                (5) Federal Acquisition Regulation 4.8 and 16.505 require the
contract files to contain award selection documents that explain the basis for
award.

Office of USD(AT&L) Comments. The Director of Defense Procurement
concurred with the recommendation. The Director of Defense Procurement stated
that DoD will issue a policy memorandum emphasizing the requirement to
document in the contract file the basis for contract award when using non-DoD
contracts. The Director of Defense Procurement plans to issue the policy
memorandum on November 15, 2006.

      b. Require DoD organizations that use the National Aeronautics and
Space Administration Scientific and Engineering Workstation Procurement
contracts to take the free training provided by the National Aeronautics and
Space Administration.


                                  27
Office of USD(AT&L) Comments. The Director of Defense Procurement
partially concurred with the recommendation. The Director of Defense
Procurement stated that DoD will encourage DoD users of the Scientific and
Engineering Workstation Procurement contracts to take full advantage of training
provided by the National Aeronautics and Space Administration. DoD will
provide language on the contracts’ Web site endorsing the training. The Director
of Defense Procurement plans to add the language to the Web site by October 25,
2006.

Audit Response. Although the Director of Defense Procurement only partially
concurred, his comments meet the intent of the recommendation. On
November 7, 2006, we reviewed the National Aeronautics and Space
Administration Scientific and Engineering Workstation Procurement contracts’
Web site and noted that the DoD language was added to the Web site.

       c. Require contracting officers to use the National Aeronautics and
Space Administration Scientific and Engineering Workstation Procurement
on-line tool when requesting quotes because the tool aids contracting officers
in providing fair opportunity, and instruct contracting officers that they
should not deselect contractors that the on-line tool automatically chooses
unless one of the exceptions to fair opportunity is documented.

Office of USD(AT&L) Comments. The Director of Defense Procurement
partially concurred with the recommendation. The Director of Defense
Procurement stated that DoD will encourage DoD users of the Scientific and
Engineering Workstation Procurement contracts to fully use the Web site’s on-
line quote tool by adding language to the contracts’ Web site.

Audit Response. Although the Director of Defense Procurement only partially
concurred, his comments meet the intent of the recommendation.




                                   28
Appendix A. Scope and Methodology
   We performed the audit in accordance with the National Defense Authorization
   Act for FY 2006. We reviewed DoD use of the National Aeronautics and Space
   Administration (NASA) Scientific and Engineering Workstation Procurement
   (SEWP) contracts, which consisted of 26 contracts. The NASA SEWP contracts
   were separated into 9 groupings, known as “classes,” and a group of 8(a) set-
   asides. There were four single-awards classes, each containing one single-award
   contract; five multiple-award classes, consisting of 16 vendors on 19 contracts;
   and three 8(a) set-aside contracts. The NASA SEWP contracts provide
   Government agencies access to information technology products and services.

   We did not conduct the review jointly with NASA Office of the Inspector General
   (OIG) because DoD contracting officials made all award decisions, and funds for
   those purchases remained within DoD. The NASA OIG provided us with a list of
   all FY 2005 transactions made by DoD through the NASA SEWP contracts, as of
   October 11, 2005. The list included 6,569 actions, valued at approximately
   $343.2 million. We used the DoD activity address codes to identify which DoD
   agency’s contracting office awarded the orders. Of the total actions, 2,841
   actions valued at $302.6 million had an identifiable DoD activity address code.

   We organized the 2,841 actions, awarded by 238 DoD contracting offices, valued
   at $302.6 million by DoD activity address code. Of the 238, we then determined
   the ten highest (dollar value) DoD contracting offices, and we selected six to visit.
   These 6 contracting offices awarded approximately $155.8 million, or 51 percent
   of the identifiable orders. We visited the 6 contracting offices from
   September 2005 through January 2006. At the 6 contracting offices, we reviewed
   111 orders and respective modifications totaling approximately $85.9 million,
   which was 28 percent of the total dollar value of identifiable orders.

   We reviewed 111 order files maintained by the DoD contracting offices to
   determine whether:

          •   the contracting officer or program official adequately justified that the
              use of a non-DoD contract for purchases awarded after
              January 1, 2005, and with values greater than the simplified
              acquisition threshold of $100,000 was in the best interest of DoD;

          •   fair opportunity was provided to the multiple-award contractors in
              accordance with Federal Acquisition Regulation 16.505, which
              requires the contracting officer to provide a fair opportunity to all
              contractors within a class or to document why fair opportunity was not
              provided;

          •   the award documentation within the file was adequate, by determining
              if an award document was prepared and if the document sufficiently
              described the basis for award;

          •   the appropriate fund type was chosen in accordance with the DoD
              Financial Management Regulation, Volume 2A, chapter 1; and


                                        29
       •   DoD had a bona fide need for the requirement and whether it was for
           the fiscal year that financed the requirement.

We interviewed contracting officers, contracting specialists, program personnel,
and financial and accounting personnel involved in the procurement process.

We performed this audit from August 2005 to July 2006 in accordance with
generally accepted government auditing standards.

Use of Computer-Processed Data. The NASA OIG provided a list of all orders
awarded by DoD using NASA SEWP contracts. The data included the award
amount, the date of the transaction, the order number, the NASA SEWP contract
number, the Military Department, and the SEWP contractor. We did not perform
a reliability assessment of the data NASA provided. However, we did not find
any discrepancies in the data provided for the 111 orders reviewed.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the high-risk area “DoD Contract Management” and
“Management of Interagency Contracting.”




                                    30
Appendix B. Prior Coverage
    During the last 5 years, the Government Accountability Office (GAO), DoD
    Inspector General (IG), Army Audit Agency, and Air Force Audit Agency have
    issued 17 reports discussing interagency and information technology contracting.
    Unrestricted reports can be accessed over the Internet: GAO,
    http://www.gao.gov; DoD IG, http://www.dodig.mil/audit/reports; Army,
    http://www.hqda.army.mil; and Air Force, http://www.afaa.hq.af.mil.


GAO
    GAO Report No. GAO-06-996, “Interagency Contracting: Improved Guidance,
    Planning, and Oversight Would Enable the Department of Homeland Security to
    Address Risks,” September 2006

    GAO Report No. GAO-05-456, “Interagency Contracting: Franchise Funds
    Provide Convenience, but Value to DoD is Not Demonstrated,” July 2005

    GAO Report No. GAO-05-274, “Contract Management: Opportunities to
    Improve Surveillance on Department of Defense Service Contracts,” March 2005

    GAO Report No. GAO-05-207, “High-Risk Series: An Update,” January 2005

    GAO Report No. GAO-03-1069, “Budget Issues: Franchise Fund Pilot Review,”
    August 2003

    GAO Report No. GAO-02-734, “Contract Management: Interagency Contract
    Program Fees Need More Oversight,” July 2002


DoD IG
    DoD IG Report No. D-2006-029, “Report on Potential Antideficiency Act
    Violations Identified During the Audit of the Acquisition of the Pacific Mobile
    Emergency Radio System,” November 23, 2005

    DoD IG Report No. D-2005-096, “DoD Purchases Made Through the General
    Services Administration,” July 29, 2005

    DoD IG Report No. D-2005-003, “DoD Antideficiency Act Reporting and
    Disciplinary Process,” October 14, 2004

    DoD IG Report No. D-2004-084, “Antideficiency Act Investigation of the
    Research, Development, Test and Evaluation, Defense-Wide, Appropriation
    Account 97 FY 1989/1990 0400,” May 28, 2004



                                        31
    DoD IG Report No. D-2003-090, “Use and Control of Military Interdepartmental
    Purchase Requests at the Air Force Pentagon Communications Agency,”
    May 13, 2003

    DoD IG Report No. D-2002-110, “Policies and Procedures for Military
    Interdepartmental Purchase Requests at Washington Headquarters Services,”
    June 19, 2002

    DoD IG Report No. D-2002-109, “Army Claims Service Military
    Interdepartmental Purchase Requests,” June 19, 2002

    DoD IG Report No. D-2001-189, “Multiple Award Contracts for Services,”
    September 30, 2001


Army Audit Agency
    Army Audit Agency Report No. A-2004-0244-FFB, “Information Technology
    Agency Contract Management,” May 25, 2004

    Army Audit Agency Report No. A-2002-0536-IMU, “Military Interdepartmental
    Purchase Requests Logistics Assistance Group—Europe,” August 21, 2002


Air Force Audit Agency
    Air Force Audit Agency Report No. F2005-0006-FBP000, “GSA Military
    Interdepartmental Purchase Requests, 353rd Special Operations Group, Kadena
    AB, Japan,” November 10, 2004

    Air Force Audit Agency Report No. F2004-0046-FBP000, “GSA Military
    Interdepartmental Purchase Requests, 390th Intelligence Squadron, Kadena AB,
    Japan,” August 11, 2004




                                      32
Appendix C. NASA Scientific and Engineering
            Workstation Procurement
            Contractors

Class 1 - Single-award      Hewlett-Packard Development Company, L.P.
Class 2 - Single-award      GTSI Corporation (Sun Microsystems products)
Class 4 - Single-award      International Business Machines (IBM) Corporation
Class 5 - Single-award      Silicon Graphics, Inc.
Class 6 - Multiple-award    Government Micro Resources (Cray products)
                            Hewlett-Packard Development Company, L.P. (Compaq
                            products)
                            Silicon Graphics, Inc.
Class 10 - Multiple-award   FCN Technology Solutions
                            Intelligent Decisions
Class 11 - Multiple-award   GTSI Corporation
                            Northrop Grumman Information Technology
                            Unisys
Class 12 - Multiple-award   DLT Solutions, Inc.
                            World Wide Technology, Inc.
                            iGov
                            CounterTrade Products, Inc.
                            Intelligent Decisions
                            CDW Government, Inc.
                            Technica Corporation
                            Sword and Shield Enterprise Security, Inc.
Class 13 - Multiple-award   Government Micro Resources, Inc.
                            GTSI Corporation
                            Northrop Grumman Information Technology
8(a) Set-asides             MIRATEK Corporation
                            Eyak Technology, LLC
                            psi technology, doing business as Petrosys Solutions, Inc.




                                    33
Appendix D. Multiple-Award Contract Problems
            Identified

                       Inadequate or No     Fair Opportunity     Inadequate Award
  Order Number
                         Justification        Not Provided         Documentation
                 Space and Naval Warfare Systems Center Charleston
 N65236-05-F-0251          Not Applicable            ●                 ●
 N65236-05-F-0792                ●                   ●                 ●
 N65236-05-F-1871                ●                   ●                 ●
 N65236-05-F-1883                ●                   ●                 ●
 N65236-05-F-2404                ●                   ●                 ●
 N65236-05-F-3017                ●                   ●                 ●
 N65236-05-F-3065                ●                   ●                 ●
 N65236-05-F-4145                ●
 N65236-05-F-4150                ●                   ●
 N65236-05-F-4151                ●                   ●
 N65236-05-F-4258                ●                   ●
 N65236-05-F-8070                ●
 N65236-05-F-8114                ●
 N65236-05-F-9314          Not Applicable            ●                 ●
 N65236-05-F-9315          Not Applicable            ●                 ●
 N65236-05-F-9316          Not Applicable            ●                 ●
 N65236-05-F-9535                ●                   ●                 ●
 N65236-05-F-9543                ●                   ●                 ●
 N65236-05-F-9560                ●                   ●                 ●
                    Space and Naval Warfare Systems Center San Diego
 N66001-05-F-G057          Not Applicable
 N66001-05-F-G076          Not Applicable
 N66001-05-F-K086          Not Applicable            ●
 N66001-05-F-L003          Not Applicable            ●
 N66001-05-F-L021          Not Applicable            ●
 N66001-05-F-L034          Not Applicable            ●
 N66001-05-F-N083          Not Applicable            ●
 N66001-05-F-N092          Not Applicable            ●
 N66001-05-F-P077                ●                   ●



                                            34
Appendix D. Multiple-Award Contract Problems
            Identified (cont’d)

                      Inadequate or No     Fair Opportunity     Inadequate Award
  Order Number
                        Justification        Not Provided         Documentation
             Space and Naval Warfare Systems Center San Diego (cont’d)
 N66001-05-F-P196                ●
 N66001-05-F-P205                ●
 N66001-05-F-Q055          Not Applicable
 N66001-05-F-Q128                ●                    ●
 N66001-05-F-Q174          Not Applicable
 N66001-05-F-R614                ●
 N66001-05-F-V083          Not Applicable             ●
 N66001-05-F-W008          Not Applicable             ●
 N66001-05-F-W009          Not Applicable             ●                ●
 N66001-05-F-W015                ●                    ●
 N66001-05-F-Y050          Not Applicable             ●
 N66001-05-F-Y116          Not Applicable
 N66001-05-F-Z040                ●                    ●
 N66001-05-F-Z089          Not Applicable
 N66001-05-F-Z092          Not Applicable             ●
                    6th Contracting Squadron, MacDill Air Force Base
 FA4814-05-F-A140                ●                    ●                ●
 FA4814-05-F-A154                ●                    ●
 FA4814-05-F-A214                ●                    ●                ●
 FA4814-05-F-A284                ●                    ●                ●
 FA4814-05-F-A299                ●                    ●
 FA4814-05-F-A456                ●
 FA4814-05-F-A717                ●                                     ●
 FA4814-05-F-A731                ●                    ●
 FA4814-05-F-A814                ●                    ●
 FA4814-05-F-A860                ●                                     ●
 FA4814-05-F-A863          Not Applicable             ●                ●
 FA4814-05-F-A895                ●                    ●                ●
 FA4814-05-F-A917          Not Applicable             ●                ●




                                            35
Appendix D. Multiple-Award Contract Problems
            Identified (cont’d)

                         Inadequate or No        Fair Opportunity   Inadequate Award
  Order Number
                           Justification           Not Provided       Documentation
                    Electronic Systems Center, Hanscom Air Force Base
 FA8706-05-F-0003                ●                      ●
 FA8706-05-F-0005                ●                      ●
 FA8706-05-F-0008                ●                      ●
 FA8706-05-F-0012                ●                      ●
 FA8706-05-F-0014                ●                      ●
 FA8706-05-F-0016                ●
 FA8706-05-F-0018                ●
 FA8707-05-F-0031                ●                      ●                  ●
 FA8720-05-F-0001          Not Applicable               ●
 FA8720-05-F-0006          Not Applicable               ●
 FA8720-05-F-0007          Not Applicable               ●
 FA8720-05-F-0008                ●                      ●
 FA8720-05-F-0010          Not Applicable               ●
 FA8720-05-F-0016                ●                      ●
 FA8720-05-F-0017          Not Applicable               ●
 FA8720-05-F-8008                ●                      ●
 FA8720-05-F-8010                ●                      ●
 FA8720-05-F-8011                ●
 FA8726-05-F-0001          Not Applicable
 FA8726-05-F-0003                ●

     Defense Information Technology Contracting Office National Capital Region
 HC1047-05-F-4075          Not Applicable               ●
 HC1047-05-F-4081          Not Applicable               ●
 HC1047-05-F-4177                ●                      ●
 HC1047-05-F-4184                ●
 HC1047-05-F-4192                ●
 HC1047-05-F-4223                ●
 HC1047-05-F-4313                ●                                         ●




                                            36
Appendix D. Multiple-Award Contract Problems
            Identified (cont’d)

                      Inadequate or No        Fair Opportunity    Inadequate Award
  Order Number
                        Justification           Not Provided        Documentation
 Defense Information Technology Contracting Office National Capital Region (cont’d)
 HC1047-05-F-4538             ●
 HC1047-05-F-4552             ●                      ●
      Defense Information Technology Contracting Office, Scott Air Force Base
 HC1013-05-F-2037       Not Applicable               ●
 HC1013-05-F-2043       Not Applicable               ●
 HC1013-05-F-2167             ●
 HC1013-05-F-2802             ●
 HC1013-05-F-2810             ●
 HC1013-05-F-2884             ●
 HC1013-05-F-2897             ●
 HC1013-05-F-2922             ●                      ●
 HC1013-05-F-2999             ●                      ●
 HC1013-05-F-2967             ●                      ●
 HC1013-05-F-3006             ●                      ●                    ●
 HC1013-05-F-3017             ●                      ●




                                         37
Appendix E. Single-Award Contract Problems
            Identified

                    Inadequate or Fair Opportunity Inadequate Award        No Evidence
Order Number
                   No Justification  Not Provided      Documentation       of Discounts
                   Space and Naval Warfare Systems Center Charleston
N65236-05-F-4206          ●          Not Applicable
                   Space and Naval Warfare Systems Center San Diego
N66001-05-F-E012    Not Applicable   Not Applicable                               ●
N66001-05-F-E152    Not Applicable   Not Applicable                               ●
N66001-05-F-M034    Not Applicable   Not Applicable
N66001-05-F-N049          ●          Not Applicable
N66001-05-F-Q044    Not Applicable   Not Applicable
N66001-05-F-Q056    Not Applicable         ●
N66001-05-F-Y128    Not Applicable
N66001-05-F-Z025    Not Applicable   Not Applicable
      Defense Information Technology Contracting Office National Capital Region
HC1047-05-F-4561          ●                                    ●
        Defense Information Technology Contracting Office, Scott Air Force Base
HC1013-05-F-2248          ●          Not Applicable                               ●
HC1013-05-F-2848          ●          Not Applicable
HC1013-05-F-2927          ●          Not Applicable
HC1013-05-F-2929          ●                ●




                                      38
Appendix F. Potential Antideficiency Act
            Violations
       We identified 14 potential Antideficiency Act violations. Recommendations for
       the Under Secretary of Defense (Comptroller)/Chief Financial Officer to initiate
       preliminary reviews regarding those potential violations are in the audit report,
       “Potential Antideficiency Act Violations on DoD Purchases Made Through Non-
       DoD Agencies,” due out in FY 2007.


Navy
       1. Order N66001-05-F-Q174. A potential bona fide needs rule violation
          occurred when a DoD contracting officer awarded order N66001-05-F-Q174
          for various computer hardware, such as workgroup switches. The value of
          this order was $64,271. The order was funded with FY 2005 Navy operations
          and maintenance (O&M) funds. The contracting officer awarded the order on
          September 19, 2005, and scheduled delivery for October 7, 2005. The goods
          were received from October 26 through December 27, 2005. Therefore, the
          goods did not represent a bona fide need in FY 2005. The receipt of goods
          after the DoD appropriation expired could not be justified by production lead-
          time or unforeseen delays. Use of FY 2005 O&M funds to satisfy FY 2006
          requirements does not meet the intent of the bona fide needs rule. This order
          was funded by the Office of Naval Intelligence and the Joint Systems
          Integration Command.


Air Force
       2. Order HC1047-05-F-4552. Potential bona fide needs rule and purpose
          statute violations occurred when a DoD contracting officer awarded order
          HC1047-05-F-4552 for information technology hardware and software. The
          value of the order was $983,878. The order was awarded using FY 2005 Air
          Force O&M funds. Because the order exceeded $250,000, the order should
          have been considered an investment rather than an expense, and procurement
          funds should have been used. The contracting officer awarded the order on
          September 28, 2005, and scheduled delivery for October 28, 2005. The goods
          were received on November 4, 2005. Therefore, the goods did not represent a
          bona fide need in FY 2005. The receipt of goods after the DoD appropriation
          expired could not be justified by production lead-time or unforeseen delays.
          Use of FY 2005 O&M funds to satisfy FY 2006 requirements does not meet
          the intent of the bona fide needs rule. This order was funded by the Assistant
          Secretary of the Air Force (Financial Management and Comptroller), Budget
          Management and Execution, Special Programs Office.




                                           39
United States Central Command
     3. Order FA4814-05-F-A731. Potential bona fide needs rule and purpose
        statute violations occurred when a DoD contracting officer awarded order
        FA4814-05-F-A731 for Host Base Intrusion Detection System Components.
        The value of the order was $507,271. This order was funded with FY 2005
        Air Force O&M funds. Because the order was more than $250,000, it should
        have been considered an investment rather than an expense, and procurement
        funds should have been used. The contracting officer awarded the order on
        September 9, 2005, and scheduled delivery for October 11, 2005. Some of the
        goods were not delivered until October 17, 2005. Therefore, the goods did
        not represent a bona fide need in FY 2005. The receipt of goods after the
        DoD appropriation expired could not be justified by production lead-time or
        unforeseen delays. Use of FY 2005 O&M funds to satisfy FY 2006
        requirements does not meet the intent of the bona fide needs rule. This order
        was funded by United States Central Command.

     4. Order FA4814-05-F-A814. Potential bona fide needs rule and purpose
        statute violations occurred when a DoD contracting officer awarded order
        FA41814-05-F-A814 for $758,442. The order purchased computer
        equipment, such as the Gateway E6300 personal computer. This order was
        funded with FY 2005 Air Force O&M funds. Because the order was more
        than $250,000, it should have been considered an investment rather than an
        expense, and procurement funds should have been used. The contracting
        officer awarded the order on September 19, 2005, and scheduled delivery for
        October 19, 2005. The goods were delivered November 3, 2005. Therefore,
        the goods did not represent a bona fide need in FY 2005. The receipt of goods
        after the DoD appropriation expired could not be justified by production lead-
        time or unforeseen delays. Use of FY 2005 O&M funds to satisfy FY 2006
        requirements does not meet the intent of the bona fide needs rule. This order
        was funded by United States Central Command.

     5. Order FA4814-05-F-A863. A potential bona fide needs rule violation
        occurred when a DoD contracting officer awarded order FA4814-05-F-A863
        for various computer equipment. The value of the order was $46,854. The
        order was funded with FY 2005 Air Force O&M funds. The contracting
        officer awarded the order on September 22, 2005, and scheduled delivery for
        November 4, 2005. The goods were delivered on December 13, 2005.
        Therefore, the goods did not represent a bona fide need in FY 2005. The
        receipt of goods after the DoD appropriation expired could not be justified by
        production lead-time or unforeseen delays. Use of FY 2005 O&M funds to
        satisfy FY 2006 requirements does not meet the intent of the bona fide needs
        rule. This order was funded by United States Central Command.


United States Special Operations Command
     6. Order FA4814-05-F-A154. A potential purpose statute violation occurred
        when a DoD contracting officer awarded order FA4814-05-F-A154 for a file


                                         40
   storage and server system. The value of the order was $738,383. This order
   was funded with FY 2005 Defense-wide O&M funds. Because the order was
   more than $250,000, it should have been considered an investment rather than
   an expense, and procurement funds should have been used. This order was
   funded by United States Special Operations Command.

7. Order FA4814-05-F-A717. A potential bona fide needs rule violation
   occurred when a DoD contracting officer awarded order FA4814-05-F-A717
   for software. The value of the order was $159,501. The order was funded
   with FY 2005 Defense-wide O&M funds. The contracting officer awarded
   the order on September 8, 2005, and scheduled delivery for October 8, 2005.
   The goods were delivered on October 7, 2005. Therefore, the goods did not
   represent a bona fide need in FY 2005. The receipt of goods after the DoD
   appropriation expired could not be justified by production lead-time or
   unforeseen delays. Use of FY 2005 O&M funds to satisfy FY 2006
   requirements does not meet the intent of the bona fide needs rule. This order
   was funded by the National Geospatial Intelligence Agency through United
   States Special Operations Command.

8. Order FA4814-05-F-A860. A potential bona fide needs rule violation
   occurred when a DoD contracting officer awarded order FA4814-05-F-A860
   for a server. The value of the order was $105,997. The order was funded
   with FY 2005 Defense-wide O&M funds. The contracting officer awarded
   the order on September 20, 2005, and scheduled delivery for
   October 20, 2005. The goods were delivered on October 4, 2005. Therefore,
   the goods did not represent a bona fide need in FY 2005. The receipt of goods
   after the DoD appropriation expired could not be justified by production lead-
   time or unforeseen delays. Use of FY 2005 O&M funds to satisfy FY 2006
   requirements does not meet the intent of the bona fide needs rule. This order
   was funded by United States Special Operations Command.

9. Order FA4814-05-F-A895. A potential bona fide needs rule violation
   occurred when a DoD contracting officer awarded order FA4814-05-F-A895
   for computer hardware, software, and licenses. The value of the order was
   $479,630. This order was funded with FY 2005 Defense-wide O&M funds.
   Although the $479,630 order amount is greater than the $250,000 threshold
   for O&M funds, the goods were not part of an overall system. Therefore, the
   threshold applies on a per item basis. Because no individual item had a cost
   greater than $250,000, the order does not violate the purpose statute. The
   contracting officer awarded the order on September 22, 2005, and scheduled
   delivery for October 22, 2005. The goods were delivered through
   November 8, 2005. Therefore, the goods did not represent a bona fide need in
   FY 2005. The receipt of goods after the DoD appropriation expired could not
   be justified by production lead-time or unforeseen delays. Use of FY 2005
   O&M funds to satisfy FY 2006 requirements does not meet the intent of the
   bona fide needs rule. This order was funded by United States Special
   Operations Command.

10. Order FA4814-05-F-A917. A potential bona fide needs rule violation
    occurred when a DoD contracting officer awarded order FA4814-05-F-A917
    for graphic hardware. The value of the order was $31,810. The order was


                                   41
        funded with FY 2005 Air Force O&M funds. The contracting officer awarded
        the order on September 26, 2005, and scheduled delivery for
        October 24, 2005. The goods were received on December 7, 2005.
        Therefore, the goods did not represent a bona fide need in FY 2005. The
        receipt of goods after the DoD appropriation expired could not be justified by
        production lead-time or unforeseen delays. Use of FY 2005 O&M funds to
        satisfy FY 2006 requirements does not meet the intent of the bona fide needs
        rule. This order was funded by United States Special Operations Command.


Defense Information Systems Agency
     11. Order HC1013-05-F-2810. Potential bona fide needs rule and purpose
         statute violations occurred when a DoD contracting officer awarded order
         HC1013-05-F-2810 for Standardized Tactical Entry Point Information
         Assurance Tools, which included assorted hardware and software. The value
         of the order was $4,149,461. The order was funded with FY 2005 Defense-
         wide O&M funds. Because the order was more than $250,000, it should have
         been considered an investment rather than an expense, and procurement funds
         should have been used. The contracting officer awarded the order on
         August 25, 2005, with a scheduled delivery for 21 days from award,
         September 15, 2005. However, the goods were received on
         November 15, 2005. As a result, the goods did not represent a bona fide need
         in FY 2005. The receipt of goods after the DoD appropriation expired could
         not be justified because standard commercial off-the-shelf items are readily
         available from other sources. The order was competed among all 8 NASA
         SEWP vendors in class 12. Use of FY 2005 O&M funds to satisfy FY 2006
         requirements does not meet the intent of the bona fide needs rule. This order
         was funded by the Defense Information Systems Agency.

     12. Order HC1047-05-F-4561. A potential bona fide needs rule violation
         occurred when a DoD contracting officer awarded order HC1047-05-F-4561
         for a Sun database server. The value of the order was $115,829. The order
         was funded with FY 2005 Defense-wide O&M funds. The contracting officer
         awarded the order on September 30, 2005, and scheduled delivery for
         November 1, 2005. The server was delivered on October 27, 2005.
         Therefore, the server did not represent a bona fide need in FY 2005. The
         receipt of goods after the DoD appropriation expired could not be justified by
         production lead-time or unforeseen delays. Use of FY 2005 O&M funds to
         satisfy FY 2006 requirements does not meet the intent of the bona fide needs
         rule. This order was funded by the Defense Information Systems Agency.


Defense Security Service
     13. Order HC1013-05-F-2848. A potential purpose statute violation occurred
         when a DoD contracting officer awarded order HC1013-05-F-2848 for a 3-
         year lease of Sun equipment and other miscellaneous equipment. The value
         of the order was $10,918,072. This order was funded with FY 2005 Defense-


                                         42
        wide O&M funds. Because the order was more than $250,000, it should have
        been considered an investment rather than an expense, and procurement funds
        should have been used. This order was funded by the Defense Security
        Service.


Counterintelligence Field Activity
     14. Order HC1013-05-F-3006. A potential bona fide needs rule violation
         occurred when a DoD contracting officer awarded order HC1013-05-F-3006
         for licenses, maintenance, and technical support services. The value of the
         order was $500,000. The order was funded with FY 2005 O&M funds.
         Although the $500,000 order amount is greater than the $250,000 threshold
         for O&M funds, according to Counterintelligence Field Activity personnel,
         Congress designated these O&M funds for use on this project. The
         contracting officer awarded the order on September 21, 2005, and did not
         schedule a delivery date. The goods were delivered on January 6, 2006, more
         than 3 months after the end of FY 2005. Therefore, the goods did not
         represent a bona fide need in FY 2005. The receipt of goods after the DoD
         appropriation expired could not be justified because of production lead-time
         or unforeseen delays. This order also included severable services that
         commenced December 13, 2005. Thus, the services also did not represent a
         bona fide need in FY 2005. Use of FY 2005 O&M funds to satisfy FY 2006
         requirements does not meet the intent of the bona fide needs rule. The
         Counterintelligence Field Activity funded this order.




                                        43
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
   Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Army Inspector General
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Space and Naval Warfare Systems Command
Commander, Space and Naval Warfare Systems Center San Diego
Commander, Space and Naval Warfare Systems Center Charleston

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Electronics System Center Headquarters

Combatant Commands
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Information Systems Agency Headquarters
   Director, Component Acquisition Executive Office
      Director, Defense Information Technology Contracting Office National Capital
      Region
      Director, Defense Information Technology Contracting Office, Scott Air Force
      Base




                                          44
Non-Defense Federal Organization
Office of Management and Budget
Inspector General, National Aeronautics and Space Administration

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                         45
46
Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics
Comments




                       47
48
49
Department of the Navy Comments




                    50
     Final Report
      Reference




     Revised




     Revised
     Page 22




51
52
Department of the Air Force Comments




                     53
54
United States Special Operations Command
Comments




                     55
Final Report
 Reference




Revised
Page 40




               56
Defense Information Systems Agency Comments




                     57
58
59
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Terry L. McKinney
John A. Seger
David P. Goodykoontz
Phillip M. Faller
Courtney V. Biggs
Julie R. Zarlengo
Jonathan T. Kohut
Marcie A. McIsaac
Jillisa H. Milner
Meredith H. Johnson
